<html>
<title> - THE NATIONAL PREPAREDNESS SYSTEM: WHAT ARE WE PREPARING FOR?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
      THE NATIONAL PREPAREDNESS SYSTEM: WHAT ARE WE PREPARING FOR?

=======================================================================

                                (109-12)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 14, 2005

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                    U.S. GOVERNMENT PRINTING OFFICE
21-700                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             ROBERT MENENDEZ, New Jersey
VERNON J. EHLERS, Michigan           CORRINE BROWN, Florida
SPENCER BACHUS, Alabama              BOB FILNER, California
STEVEN C. LaTOURETTE, Ohio           EDDIE BERNICE JOHNSON, Texas
SUE W. KELLY, New York               GENE TAYLOR, Mississippi
RICHARD H. BAKER, Louisiana          JUANITA MILLENDER-McDONALD, 
ROBERT W. NEY, Ohio                  California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
JERRY MORAN, Kansas                  EARL BLUMENAUER, Oregon
GARY G. MILLER, California           ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, Jr., New Jersey
ROB SIMMONS, Connecticut             LEONARD L. BOSWELL, Iowa
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         BRIAN BAIRD, Washington
TODD RUSSELL PLATTS, Pennsylvania    SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
BILL SHUSTER, Pennsylvania           RICK LARSEN, Washington
JOHN BOOZMAN, Arkansas               MICHAEL E. CAPUANO, Massachusetts
JIM GERLACH, Pennsylvania            ANTHONY D. WEINER, New York
MARIO DIAZ-BALART, Florida           JULIA CARSON, Indiana
JON C. PORTER, Nevada                TIMOTHY H. BISHOP, New York
TOM OSBORNE, Nebraska                MICHAEL H. MICHAUD, Maine
KENNY MARCHANT, Texas                LINCOLN DAVIS, Tennessee
MICHAEL E. SODREL, Indiana           BEN CHANDLER, Kentucky
CHARLES W. DENT, Pennsylvania        BRIAN HIGGINS, New York
TED POE, Texas                       RUSS CARNAHAN, Missouri
DAVID G. REICHERT, Washington        ALLYSON Y. SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 JOHN T. SALAZAR, Colorado
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
VACANCY

                                  (ii)

  


 Subcommittee on Economic Development, Public Buildings and Emergency 
                               Management

                  BILL SHUSTER, Pennsylvania, Chairman

JIM GERLACH, Pennsylvania            ELEANOR HOLMES NORTON, District of 
KENNY MARCHANT, Texas, Vice-Chair    Columbia
CHARLES W. DENT, Pennsylvania        MICHAEL H. MICHAUD, Maine
JOHN R. `RANDY' KUHL, Jr., New York  LINCOLN DAVIS, Tennessee
DON YOUNG, Alaska                    JULIA CARSON, Indiana
  (Ex Officio)                       JAMES L. OBERSTAR, Minnesota
                                       (Ex Officio)

                                 (iii)

  
?

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Buckman, Chief John, Past President, International Association 
  of Fire Chiefs, Fire Chief, German Township, Indiana...........    22
 Gruber, Corey, Associate Director, Office for Domestic 
  Preparedness, Department of Homeland Security..................     5
 Jamieson, Gil, Director, National Incident Management System 
  Integration Center, Department of Homeland Security............     5
 Liebersbach, David E., President, National Emergency Management 
  Association, Director, Division of Homeland Security and 
  Emergency Management, State of Alaska..........................    22
 Mascelli, Armond, Vice President of Domestic Response, American 
  Red Cross......................................................    22
 Salle, Captain John P., International Association of Chiefs of 
  Police.........................................................    22
 West, Dewayne, Vice Chairman, Emergency Management Accreditation 
  Program Commission, and President, International Association of 
  Emergency Managers, Director of Emergency Management, Johnson 
  County, North Carolina.........................................    22

          PREPARED STATEMENT SUBMITTED BY A MEMBER OF CONGRESS

Oberstar, Hon. James L., of Minnesota............................   127

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Buckman, Chief John.............................................    30
 Gruber, Corey...................................................    43
 Jamieson, Gil...................................................    55
 Liebersbach, David E............................................    63
 Mascelli, Armond................................................    68
 Salle, Captain John P...........................................   131
 West, Dewayne...................................................   136

                       SUBMISSIONS FOR THE RECORD

 Mascelli, Armond, Vice President of Emergency Response, American 
  Red Cross:

  NRP Fact Sheet American Red Cross..............................    74
  Public Preparedness, A National Imperative Symposium Report....    75

                                  (v)


 
      THE NATIONAL PREPAREDNESS SYSTEM: WHAT ARE WE PREPARING FOR?

                              ----------                              


                        Thursday, April 14, 2005

        House of Representatives, Subcommittee on Economic 
            Development, Public Buildings and Emergency 
            Management, Committee on Transportation and 
            Infrastructure, Washington, D.C.

    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Bill Shuster 
[chairman of the subcommittee] presiding.
    Mr. Shuster. The Subcommittee will come to order. I'd like 
to welcome the subcommittee to this important oversight hearing 
entitled, "The National Preparedness System: What are We 
Preparing For?"
    Since the terrorist attacks of September 11, the Nation has 
been focused on its ability to prevent, prepare for, and 
respond to the next terrorist attack. However, well before the 
attacks of that terrible day, the Federal Government, in 
partnership with responders nationwide, was working to ensure 
that should an attack happen, we would be prepared to deal with 
the consequences.
    For example, FEMA was developing and delivering courses on 
dealing with weapons of mass destruction, especially those 
involving hazardous materials. The Department of Defense was 
providing specialized training to National Guard units 
nationwide; a terrorism annex was added to the Federal Response 
Plan; A government-wide agreement about who would do what in 
the event of a disaster; and the Office For Domestic 
Preparedness was providing assistance to first responders to 
train and equip to deal with the crisis of terrorism. These 
actions were on top of those efforts being undertaken to help 
prepare communities for the natural disasters they face every 
day.
    What was missing before 9/11 was not a government-wide 
interest in preparing for disasters of all types, but the 
consensus that this preparation needed to occur in a 
coordinated and comprehensive manner. Then, as now, the debate 
carried on over the question of what is the best way to prepare 
for all the disasters that we will face as a Nation.
    Some argued that preparing for and responding to natural 
and accidental disasters is very different than preparing for 
terrorism, and therefore must occur on a separate track. 
Others, including this committee, advocate the position that 
while certain characteristics of each disaster may differ, the 
general framework is the same regardless of the disaster, and 
therefore the preparation and response should be coordinated.
    In releasing Homeland Security Presidential Directives 5, 7 
and 8, the President established the framework for such a 
system and a roadmap for achieving it. Collectively, these 
directives require the creation of a National Preparedness 
System, one that establishes a national preparedness goal, 
outlines the targeted capabilities required to meet that goal, 
lays out the tasks necessary to reach the targeted 
capabilities, establishes a common incident command system to 
utilize these capabilities to the greatest potential, and then 
puts together an operational plan for how all of these parts 
come together when they are needed, the National Response Plan.
    It is my belief that preparing for national and man- caused 
hazards are not competing interests. If we create a system that 
looks at all the hazards that the Nation will face, identify 
universal capabilities that are needed in various scenarios, 
establish minimum preparedness levels, and provide guidance to 
communities on how to reach those preparedness levels, and 
support so that they may do so, then we will have truly created 
a National Preparedness System.
    The large question that remains: What exactly are we 
preparing for? With the creation of these foundational 
documents, we must ask: Do these documents create an all- 
hazard system that will allow communities to cross prepare for 
the many disasters they will face. Or have we become so focused 
on terrorism that we've lost sight of the hazards we are most 
likely to face.
    For example, the Department is using 15 planning scenarios 
as a basis for all of its preparedness documents. Twelve of 
fifteen are terrorism and only two are natural disasters. Why 
the disparity? By only including two natural disasters, are we 
truly preparing for all the challenges we face?
    The biggest risk we run in failing to adequately address 
this issue is the creation of a false sense of security that we 
are prepared for the next disaster. By focusing on how much we 
have spent to prepare the Nation since 9/11, we run this very 
risk. The question should not be how much have we spent, but 
how are we spending it and are we doing so in a way that truly 
prepares us?
    There are two additional issues I would like to raise. 
First, this new preparedness system will require a whole host 
of new documents, including planning standards and assessments. 
Will these be building on what is already out there or are 
States going to have to start all over again? Second, I was 
very surprised not to see any mention of mitigation in any of 
these preparedness documents, despite the fact that it is the 
one way of preparing that we know will save lives, property, 
and money.
    I am very interested to hear from today's witnesses who are 
both on the front line of preparing for a disaster and in the 
back room ensuring that we are prepared to do so, all experts 
in their field, who can shed light on these as well as many 
other issues that are out there.
    With that, I would like to recognize the ranking member, 
Ms. Norton from the District of Columbia, for an opening 
statement if she wishes.
    Ms. Norton. Thank you very much, Chairman Shuster. I am 
going to read part of my statement, if you will, and submit the 
rest for the record.
    I want to commend you, Mr. Chairman, on the name of this 
hearing: The National Preparedness System: What are We 
Preparing For? I'm on two other committees, of course, who 
appropriately have been focused on preparing for terrorism, the 
Select Committee on Homeland Security and the Committee on 
Government Reform, and one can understand why the country since 
9/11 has been in the throes of all the start-up and train-up 
work that would be required.
    I want to associate myself with your remarks, though, Mr. 
Chairman, about the all-hazards approach for preparing for 
whatever hazard comes to us. If you ask a firefighter whether 
there is any difference between a hazard when a building 
explodes, for example, because of a gas leak, or when it 
explodes because it has been hit by a terrorist bomb or some 
other device, and I have asked about this, indeed I have just 
come from a Homeland Security hearing where firefighters were 
testifying, he will tell you absolutely not. And what you are 
doing, Mr. Chairman, is refocusing us, rebalancing us so that 
we understand what firefighters and other first responders are 
likely to face.
    The chances are overwhelming that they will face some 
natural disaster of the kind they have faced every day, God 
willing. So we cannot let 9/11, for all its horror and tragedy, 
distract us from keeping our people safe against the most 
likely hazards they will face. So I very much appreciate this 
hearing, Mr. Chairman.
    I note that the two Chairs of the committees who have been 
particularly involved, our own committee and the Committee on 
Government Reform are now also on the Select Committee on 
Homeland Security. So that might also help us achieve balance.
    As we are all aware, following the terrorist acts in 
Oklahoma City and New York increased emphasis, efforts, and 
resources have been put into developing a consolidated, 
comprehensive national preparedness and response plan. I note 
that we are examining the status and direction of national 
preparedness today when the National Response Plan, which seeks 
to "integrate Federal Government domestic prevention 
preparedness response and recovery plans into one all- 
discipline all-hazards plan," is to be totally implemented.
    When the Office of State and Local Government Coordination 
and Preparedness at DHS began working on these initiatives, 
initially the process got off to a rough start. Many 
stakeholders, including State, local and preparedness- related 
organizations were not sufficiently included in the process. 
Over time, it appears that the process has become more open, 
yet a number of questions remain.
    First, while HSPD-8 allows a special emphasis to be given 
to terrorism, the National Preparedness System is supposed to 
be an all-hazards system. Many of the initiatives that support 
the EMPS, however, are heavily focused on terrorism and spend 
little or no effort preparing for natural disasters.
    The chairman just noted that only two disasters, 
earthquakes and tornadoes, are included in the scenarios. What 
about hurricanes and floods, which are annual occurrences in 
our country, I am sorry to say?
    This subcommittee is on record as a strong supporter of 
mitigation of hazards other than terrorism. For the past 
several years, we have been trying to reauthorize the 
Predisaster Mitigation Program and to make sure that there is 
enough funding for the Hazard Mitigation Program. Mitigation is 
proactive. It is preventive. It is mitigation and prevention 
that saves lives, money, and property. It doesn't clean up 
after an event, it keeps an event from happening or helps us to 
prepare for events so that the harm is far less serious.
    Moreover, in recent years, there has been a decline in 
support by the administration for mitigation programs and a 
reduction in funding, thus further diminishing its importance. 
This leaves a gap in our preparedness system. Many stakeholders 
have concerns about the new guidance that will be released with 
the NPS.
    For example, will it build upon well-established industry 
standards or will they have to develop new plans and 
procedures? Further, funding is tied directly to compliance 
with new requirements, and many localities are concerned they 
will not have sufficient budgets or manpower to comply with the 
new mandates.
    The President was granted broad authority to implement a 
National Preparedness System in the Homeland Security Act of 
2002. Many of the actions taken by the administration to 
further these efforts have been done by executive order and 
presidential directive. These documents are not law and cannot 
supercede existing restrictions or existing authority. It 
remains unclear under what authority the President will impose 
the requirements of the NPS, and under what authority and 
circumstances he will invoke some of the authorities and 
procedures of a National Response Plan, especially when 
declaring an incident of national significance.
    It is our responsibility to make sure that a National 
Preparedness System is effective, efficient, and that it 
appropriately balances potential threat and magnitude of all 
our hazards with the resources available to prevent, respond 
and recover from them, to quote from the statute in the plan.
    Are we going in the right direction? Are we asking our 
communities to keep inventing the wheel? I hope we will explore 
these ideas today, and I look forward to the testimony of our 
witnesses. I thank them in advance for their testimony, and I 
thank you, Mr. Chairman.
    Mr. Shuster. Thank you, Ms. Norton.
     I ask unanimous consent that all our witnesses' full 
statements be included in the record. Without objection, so 
ordered.
    Since your written testimony has been made a part of the 
record, the subcommittee would request you limit your summary 
to five minutes.
    We have two panels of witnesses with us here today. We have 
two witnesses, both from the Department of Homeland Security, 
but who each have a very different and important role in our 
National Preparedness System.
    Corey Gruber is the Assistant Director of the Office For 
Domestic Preparedness, which is part of the Office for State 
and Local Government Coordination and Preparedness, and Gil 
Jamieson is the Director of the National Incident Management 
System Integration Center.

   TESTIMONY OF COREY GRUBER, ASSOCIATE DIRECTOR, OFFICE FOR 
DOMESTIC PREPAREDNESS, DEPARTMENT OF HOMELAND SECURITY; AND GIL 
    JAMIESON, DIRECTOR, NATIONAL INCIDENT MANAGEMENT SYSTEM 
      INTEGRATION CENTER, DEPARTMENT OF HOMELAND SECURITY

    Mr. Shuster. We will hear from both of our witnesses on 
this panel before opening for questions, and Mr. Gruber, you 
may proceed.
    Mr. Gruber. Mr. Shuster, Ms. Norton, my name is Corey 
Gruber, with the Department of Homeland Security, sir. It is my 
honor and pleasure to appear before you today to discuss in 
detail Homeland Security Presidential Directive 8 on national 
preparedness, the Interim National Preparedness Goal and the 
National Preparedness Guidance.
    As you know, Mr. Chairman, the Department continues to 
aggressively implement HSPD-8. The President issued the 
directive in December 2003 in order to establish policies, 
procedures and goals to strengthen the Nation's preparedness to 
prevent and respond to terrorist attacks, major disasters, and 
other emergencies. Specifically, HSPD-8 calls for a domestic 
all-hazards preparedness goal that establishes measurable 
priorities and targets, creates mechanisms to improve delivery 
of preparedness assistance to State, local, and tribal 
governments, and outlines actions to strengthen their 
preparedness capabilities.
    DHS consulted extensively with stakeholders from all levels 
of government, the private sector, and nongovernmental 
organizations to ensure the implementation was truly national, 
not solely Federal. DHS invited over 1,500 entities to comment, 
including 398 municipalities, 112 State agencies, and 94 
national associations. The Department's commitment to 
stakeholder engagement reflects the principle that preparedness 
and domestic incident management are shared national 
responsibilities.
     HSPD-8 complements and supports HSPD-5 on management of 
domestic incidents.
    Together, these directives establish a common approach to 
preparedness and response through NIMS, through the NRP, and 
through our National Preparedness Goal. The goal enables 
entities across the Nation to pinpoint capabilities that need 
improvement and sustain these capabilities at levels needed to 
manage major events using the protocols established by NIMS and 
NRP.
    On March 31, 2005, DHS released the Interim Goal. The Goal 
reflects the Department's progress to date and represents the 
first major step in transforming the way the Nation prepares 
and develops capabilities to prevent, respond, and recover from 
terrorist attacks, major disasters, and other emergencies. It 
will guide Federal, State, local, and tribal entities in 
determining how best to devote limited resources to most 
effectively and efficiently strengthen preparedness. It 
transforms the way we think about preparedness by defining 
agile and flexible capabilities that must be in place at all 
appropriate levels to prevent and respond to current and future 
threats and hazards. The Goal establishes measurable targets 
and priorities in a systematic approach for determining how 
prepared we are, how prepared we need to be, and how to 
prioritize efforts to close gaps.
    To help achieve the Goal, DHS, in coordination and 
consultation with national stakeholders, has developed a set of 
detailed planning tools. These include the National Planning 
Scenarios, which illustrate the Nation's strategic risk in the 
form of the potential scope, magnitude, and complexity of 
representative major events; a comprehensive library of 
homeland security tasks, called the Universal Task List; and a 
compendium of 36 capability templates, called the Target 
Capabilities List. Every entity across the country will not be 
expected to develop and maintain every capability to the same 
level. These will vary based on risk, resource base and needs 
of different jurisdictions.
    Over the coming months, DHS will continue to work with 
stakeholders to establish target levels and apportion 
responsibility for developing capabilities among levels of 
government. DHS will issue updated target levels in conjunction 
with the final National Preparedness Goal in October 2005.
    In addition to the planning tools, the interim goal 
describes seven consensus national priorities. They fall into 
two categories: Overarching priorities that contribute to the 
development of multiple capabilities, and capability-specific 
priorities that build selected capabilities for which the 
Nation has the greatest need.
    The overarching national priorities are: Implementing the 
National Response Plan and National Incident Management System, 
expanding regional collaboration, and implementing the interim 
national infrastructure protection plan. The capability-
specific priorities are strengthening information sharing and 
collaboration, strengthening interoperable communications, 
strengthening chemical, biological, radiological, nuclear and 
explosive detection, response, and decontamination, and, 
finally, strengthening medical surge and mass prophylaxis.
    To help implement the goal and priorities, DHS and its 
partners will shortly issue National Preparedness Guidance, 
with specific step-by-step instructions on implementing the 
goal and for updating State and urban area homeland security 
strategies. DHS will hold regional roll-out conferences in the 
upcoming months for the Goal and Guidance, and deploy State-by-
State training teams comprised of experienced senior State and 
local experts.
    Building the right preparedness system for the Nation and 
achieving these target levels of capability will take time, and 
the full benefits will not come overnight. Many benefits have 
already been realized, such as the requirement and directive to 
establish a national exercise program and lessons learned 
system. More will be recognized shortly, such as a streamlined 
process for determining needs, a clear role for stakeholders in 
shaping the system, and a more realistic picture of where we 
now stand in terms of national preparedness and where to make 
the most cost effective investments with homeland security 
dollars.
    In summary, our approach to implementing the guidance of 
the President and Congress has centered on two key principles: 
First, that preparedness and domestic incident management are 
shared national responsibilities; and, second, that our 
strategic analysis must be risk based, considering current and 
emerging threats, our potential vulnerabilities, and the 
consequences of major events that pose the greatest potential 
threat to our national interests.
    We live in a world transformed by September 11, 2001. The 
9/11 Commission wrote that a rededication to preparedness is 
perhaps the best way to honor the memories of those we lost 
that day. The publication of the goal brings us a significant 
step closer to fulfilling this pledge.
    Mr. Chairman and members, thank you for your continuing 
support in this transformational effort, and I look forward to 
answering your questions.
    Mr. Shuster. Thank you, Mr. Gruber.
     Mr. Jamieson, you may go ahead and proceed.
    Mr. Jamieson. Thanks, Mr. Chairman. Good afternoon. And 
good afternoon to other members of the subcommittee. My name is 
Gil Jamieson, and I am the Acting Director of the National 
Incident Management System Integration Center. Because the 
National Response Plan and the NIMS are inextricably linked, 
the Undersecretary For Emergency Preparedness and Response, 
Michael Brown, has asked me to coordinate implementation of the 
NRP both within FEMA and across the Nation. It is my pleasure 
to be with you here today.
    Everyday there are events in the United States that require 
action by emergency responders. Whether those responders come 
from different parts of the same local jurisdiction or from 
State and Federal agencies, they need to be able to work 
together effectively. In Homeland Security Presidential 
Directive 5, management of domestic incidences, the President 
directed the Secretary of Homeland Security to develop a new 
approach to domestic incident management based on the National 
Incident Management System and the National Response Plan.
    The NIMS, released by the Department in March of 2004, 
established standard incident management practices, protocols 
and procedures that will allow responders to work together more 
effectively. The NRP, or the National Response Plan, released 
by the Department on January 6, 2005, uses the comprehensive 
framework of NIMS to provide the structure and mechanisms for 
the coordination of Federal support to State and local tribes.
    The NRP development process included extensive coordination 
with Federal, State, local, and tribal agencies, 
nongovernmental organizations, private sector entities, and the 
first responder and emergency management communities across the 
country. Many State and local associations, including the 
International Association of Chiefs of Police, the 
International Association of Fire Chiefs, the National 
Association of Counties, the Fraternal Order of Police, the 
National Emergency Management Association have issued press 
releases announcing and praising the completion of the National 
Response Plan.
    The National Response Plan incorporates best practices from 
a wide variety of incident management disciplines to include 
fire, rescue, emergency management, law enforcement, public 
works, and emergency medical services. Mr. Chairman, the NRP is 
an all-discipline and an all-hazard plan. Both the NRP and the 
NIMS reflect the recommendation of the 9/11 Commission and the 
intentions of Congress as expressed in the intelligence reform 
bill. The NRP applies to all actual and potential incidences of 
national significance. All major disasters and emergencies 
under the Stafford Act are incidences of national significance.
    The NRP uses and builds on the emergency support function 
structure that was a proven and successful element of the 
former Federal response plan. To ensure full integration and 
consistent approach to domestic incident management, a new 
joint field office fully incorporates and replaces the 
traditional concept of a disaster field office. The Homeland 
Security Operations Center serves as a 24/7 hub for 
coordination within the Department, to include coordination 
with FEMA's National Response Coordination Center and our 
Regional Response Coordination Centers.
    The Homeland Security Operations Center also maintains 24/7 
coordination with external components, including the National 
Counterterrorism Center and the Bureau's Strategic Information 
and Operations Center.
    The NRP includes processes for coordination between the 
principal Federal official, the joint field office, the 
Homeland Security Operations Center, and the Interagency 
Incident Management Group, or IIMG, at the headquarters level. 
The NRP integrates and rolls the responsibilities of all 
Federal departments and agencies, and was crafted to ensure 
that nothing in the plan alters or impedes the ability of 
Federal, State, local, or tribal governments or agencies to 
carry out their responsibilities under their own specific 
authorities.
    During the months of April and May, the Department will 
host seven one-day NRP seminars across the country. In fact, we 
held our first workshop here yesterday in Washington, D.C. for 
our partners and stakeholders in the national capital regions. 
These events will help educate Federal, State, and local 
incident managers on the provisions of NRP, the concept of 
operations, the operational framework, and how this new 
approach will improve domestic incident management and response 
capabilities across the Nation.
    FEMA's Emergency Management Institute led the development 
of an on-line independent study course to provide NRP 
awareness, that is IS 800, Mr. Chairman, and had previously 
developed NIMS awareness training, IS 700. These courses 
provide an extraordinary opportunity to build an understanding 
of the NIMS and the NRP, and to date 140,000 folks have 
completed these courses on line.
    The NRP is being implemented through a three-phase process. 
Phase I and II provide opportunities for departments and 
agencies and organizations to modify training, designate 
staffing of NRP organizational elements, and become familiar 
with the NRP structures, processes, and protocols, modify their 
existing interagency plans to align with the NRP, and to 
conduct the necessary training.
    The Department will be working closely with our Federal 
interagency partners on several implementation actions, 
including the development of standard operating procedures. The 
SOPs will help ensure that the NRP is executed in an efficient 
and consistent manner. Over time, the standard operating 
procedures will become the basis for field operations guides 
and specific job training for anyone expected to perform under 
the National Response Plan.
    During the third phase, the Department will conduct 
assessments of the NRP, coordinating structures, processes, and 
protocols. And at the end of this period, we will conduct a 
review and make some recommendations to the Secretary on what 
is working and what needs to be modified and changed.
    Today is a very important day, and Congresswoman Norton, I 
note it is an important day not just for opening day of the 
Washington Nationals, but today is also the day that the NRP 
becomes fully effective. Up to this point, we have been 
operating on the Interim National Response Plan. Today, it 
becomes effective. So the domestic terrorism concept of 
operations plans and the Federal radiological emergency 
response plan are superceded and the NRP is fully operational 
and ready to be implemented, if necessary.
    HSPD-5 called for the establishment of a single 
comprehensive approach to domestic incident management. 
Together the NIMS and the NRP provide a more efficient and 
effective way for the Nation to prevent, prepare for, respond 
to, and recover from any emergency. This is accomplished by the 
elimination of duplicative and sometimes conflicting Federal 
plans, and a clear articulation of the relationship that should 
exist between Federal, State, and local concerning the 
prevention, preparedness and response elements.
    I would like to thank members of the committee for the 
opportunity to testify today, and I too look forward to your 
questions that you may have.
    Mr. Shuster. Thank you, Mr. Jamieson. I am going to start 
off the questioning with Mr. Gruber.
    We have heard from a number of stakeholders that this is 
not a National Preparedness System, it is not comprehensive, 
because it does not fully account or address nonterrorism 
events. How would you address that?
    Mr. Gruber. Let me talk a little first about the scenarios 
and the reason they were selected and how they were used. The 
concept that the scenario working group used was to select the 
minimum number of scenarios that covered the spectrum of 
threats and hazards, to use those to define specific tasks and 
then to develop capabilities.
    We used a planning methodology that is, in fact, and we 
state that in the National Preparedness Goal, an all-hazards 
approach. It is called capabilities-based planning. It is 
designed to develop agile and flexible capabilities that are 
designed to meet any threat or hazard.
    We selected that set of scenarios with, as you pointed out, 
twelve attack scenarios for two reasons. One, everyone that 
participated on the scenario working group has extensive 
experience with natural hazards given the 40 or more disaster 
declarations we have every year. We had a great body of 
experience and knowledge about natural hazards and man-made 
accidents. So we benefited from that.
    We used these WMD attack scenarios because we understand 
these are some of the areas where the Nation is least prepared. 
So that was part of the reason why they were a focus of this 
effort. For the natural hazards, we have great experience and 
actuarial data. We benefit from the experience of our 
responders. Some of those have regulated requirements. So that 
was the reason we took that approach to the planning scenarios 
that we used.
    We developed from that a comprehensive task library of over 
1,700 tasks. Some of those, for example, like performance and 
management, obviously apply to any threat or hazard you would 
face. So, again, the scenarios were benchmarks, but we believe 
the capabilities and tasks cover the full range of hazards, 
including natural hazards.
    Mr. Shuster. When you use the term risk when determining 
the capabilities, is that also determining how the funding is 
going to be allocated, when you look at the allocation of 
funds?
    Mr. Gruber. Yes, sir. As, obviously, the Secretary has 
testified, and he testified as recently as yesterday, he talked 
about using this strategic mix of looking at the threats and 
hazards, looking at specific vulnerabilities, and looking at 
the consequences. Our directive, Homeland Security Presidential 
Directive 8, specified that we needed to look at the magnitude 
and scope of the events. And, of course, the National Strategy 
for Homeland Security told us to look at the events that posed 
the greatest threat to our population, to our property, and to 
our way of life.
    So those are all part of a risk-managed system that the 
Secretary again has clearly stated will be the driving force 
for how we apportion resources.
    Mr. Shuster. It seems to me, though, when I hear folks from 
DHS talk you are focusing on terrorism and not on the other 
risks, and I'm concerned about that, that that is where the 
focus is, when over the last, well, since FEMA has been 
created, there has been something like 1,300 or 1,400 
disasters, and only four of them have been terrorism. I 
certainly don't downplay the risk of terrorism, but the reality 
is we are going to have a hurricane that is going to damage or 
decimate some town or region of the country next year, and the 
probability is great that we will have that happen.
    Mr. Gruber. Yes, sir, that's an excellent point. Again, I 
think if you look at the list of our target capabilities, you 
will see that they are broad operationally stated templates 
that apply across that range of hazards.
    For example, we have a template for planning, for all-
hazards planning. We have a template for interoperable 
communications. Those apply regardless of the threat or hazard. 
So we think, even though this suite of scenarios reflected 
these 12 attack scenarios, that the output, both in that task 
library that is going to help us with our training and exercise 
events, and ultimately those 36 capabilities, do adequately 
cover the whole range of threats and hazards that our 
Department and State and local responders are responsible for.
    Mr. Shuster. The other question I have is the National 
Preparedness System requires a State to possess 36 target 
capabilities, I believe it is. Will the Department guarantee a 
minimum level of funding to States? Because with 50 States, I 
have to believe they are all at different levels of the funding 
that they have.
    Mr. Gruber. The Secretary has talked about that, and there 
is a baseline of funding that is proposed, and I know Congress 
is making a determination about what is appropriate. Again, 
what we are doing is not a funding formula. We are trying to 
provide planning tools to State governors, to homeland security 
advisers and emergency managers that are going to allow them to 
do three things. One is to achieve the integration we all know 
we need and is part of the protocols in the NPR and NIMS; 
secondly, to achieve the interoperability that is very 
important for all these threats and hazards; and then, finally, 
to make the most cost effective investments we can to get the 
most out of our homeland security dollars and to get that 
ability to provide dual use, that it serves requirements for 
threats and hazards.
    Mr. Shuster. At some point are you going to require States, 
I mean these are the capabilities you must have? I think that 
is a big concern of the States, that the Federal Government is 
going to say you must have this and you must have that.
    Mr. Gruber. Yes, sir. In the statement, I mentioned that 
one of the most important tasks we have left to do, and that is 
why this is called an Interim Goal, is we have to work with the 
community, as we have done up to this point, to begin to 
determine what are the appropriate base-line capabilities; what 
are the right structures. Because, as I said, jurisdictions and 
States differ in terms of their risk and in terms of their 
resource base.
    One of the reasons why we strongly advocate, and I hope 
other panelists will as well, this approach with expanded 
regional collaboration, is to make sure we are drawing from the 
resource pool of the broadest area. Because all the threats and 
hazards we have talked about, regardless of whether they are 
terrorism or natural hazards, have no respect for a 
jurisdiction's boundary. They are going to be regional and 
national events.
    So our approach again was to make sure that these 
capabilities can be drawn from a regional area through mutual 
assistance, or an assistance compact to provide the support we 
need.
    Mr. Shuster. When will you finalize the target capabilities 
list?
    Mr. Gruber. By the 1st of October of 2005. And we will work 
again. We can always do better, but we have worked very hard. 
We made a commitment to the Secretary when we started this 
process that we would strive mightily to make this a model of 
cooperation and consultation. We have worked hard, and we have 
had great advice and counsel from our stakeholders when we have 
not done that correctly.
    So we are going to work very hard on this next set of 
establishing these target levels of capability to get the input 
from the people that have to make the decisions about applying 
these resources, and that is at the State and local level.
    Mr. Shuster. Thank you.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Gruber, I want to see if I can understand how natural 
hazards fit into the risk analysis that I'm working on frankly 
in my other committees. Yes, I heard Judge Chertoff testify 
yesterday, and as you know, we are in the process of 
authorizing the first Homeland Security bill and there is a lot 
of concern about the distribution of funds. I realize that is 
not your bailiwick, but everyone agrees that a risk analysis is 
necessary.
    The Senate is going through that process even in advance of 
us, but also right now simultaneously. Judge Chertoff testified 
that there should be a risk analysis. And he, helpfully, broke 
that word down so that it wasn't so much jargon. He said it is 
consisting of threats--I'm trying to recall--vulnerability and 
consequences. And good lawyer that he is, he gave an example; 
that the bridge down the street from him, there might be a 
terrorist attack on it, and the consequences of that could be 
very severe. But using this formula, threat and vulnerability, 
it would probably not be considered a substantial risk to guard 
against.
    I don't have the slightest idea of how, what your office is 
doing fits into this risk analysis, particularly given the fact 
that every jurisdiction will get some funds. But there is a 
tremendous push, I certainly am among those who are pressing 
for these funds to be distributed on a risk basis, so that 
there would be some objective formula against which to measure 
how a majority of the funds are to be allocated.
    Could you, by way of example or somehow make me understand 
how the hazards analysis that you certainly would be doing 
right in conjunction, indeed at the very same agencies would be 
involved? I'm thinking of the Coast Guard. Here is an example 
of an agency that I would bet 99 percent of its time has to do 
with pulling people out of the water, or whatever you do to 
make sure that things are well and good at home. But they are 
learning for the first time that there may be an attack on us.
    So whoever is working with the Coast Guard on what the risk 
is will also have to go through, according to Judge Chertoff, 
this notion of threat, vulnerability and consequence. If you 
could give me an example of how that would work on your side of 
the fence, it would be very helpful to me.
    Mr. Gruber. Yes, ma'am. I think you made two important 
points: One is that it is not one entity that is going to 
formulate our understanding of risk. It has to be a 
partnership. And, in fact, we are working very closely with the 
Coast Guard, for example, on our targeted infrastructure 
protection programs, on the port security grants, because we 
have to have the benefit of their experience both with, again, 
natural hazards, with oil spills, with security for ports, and 
that is all helping us to understand risk.
    We rely on our partners within the Department that have 
responsibilities for making those determinations using a 
variety of information, as you well know: Population, 
population density, law enforcement cases that are underway. 
But, of course, most importantly, we have an advantage for 
natural hazards in that we have great volumes of actuarial data 
and experience every year, as you pointed out, with perhaps 40 
disaster declarations every year.
    So the advantage is that we have, I think, a very good 
understanding of probabilities, frequency, seasonality of 
natural hazards, where we don't have the same advantage with 
these terrorist threats. And so as we look at understanding 
risk, we always have to understand that one set of risks is a 
morally neutral nonadaptive problem, meaning natural hazards. 
The other way we look at risk is through something that is 
perpetrated by a human architect, that is an adaptive threat.
    So as we make determinations about risk, we have to deal 
with both of those events, and that all has to weigh into our 
calculations. So we work with all our partners in the 
Department, we work with our community, our constituents at the 
State and local level, and the rest of the interagency to help 
us make those determinations.
    Ms. Norton. What you are saying is both kinds of risks are 
to be included in, let us say, what the final number is. What 
the final funding number is. All I can say is I do not think 
there is wide understanding of that.
    For example, parts of the Midwest or the far west people 
think are not as vulnerable. In fact, if you look at the 
intelligence, New York City gets mentioned over and over and 
over again. But in almost none of the discussion we are having 
in Homeland Security is there any discussion of the money going 
for anything except the terrorist risks.
    Now, maybe there is a separate pot of money, but it says to 
me you may be in a flood area where there are no nuclear 
facilities or where you may be land locked. And we know how al-
Qaeda works. It wants to do maximum damage somewhere. But you 
may indeed be in some kind of floodplain. And when we are 
distributing money, we will take into account that risk along 
with the risk of a terrorist event. Is that the way it is going 
to happen?
    Mr. Gruber. Ma'am, you have pointed out the problem and you 
have also talked about the solution. Yes, you were right in the 
fact that there are different components of funding that go out 
to the community; the Fire Act Grant, emergency management 
grants that are distributed to help communities address 
problems that are not particularly related to terrorism but 
that we can get dual use out of for both those kind of risks.
    Ms. Norton. So people should understand that is coming out 
of a different pot.
    Mr. Gruber. Well, it is all integrated now in this one- 
stop shop in the provision of the grant funding.
    Ms. Norton. Yes, but it is a different--that is a much more 
complicated thing to do, frankly. We thought it was complicated 
enough to try to do a risk assessment for terrorism, now when 
you put into the equation that the assessment must, and we 
certainly on this subcommittee believe it certainly must 
include these natural hazards, all I can say is I do not envy 
you, but I do not think that is well understood. And I think it 
should be better understood and people would not be so afraid 
they are not going to get any money because they are not in New 
York City and they are not in Washington, D.C.
    Mr. Gruber. May I just mention, Ma'am? You pointed out a 
very good point, and I only alluded to it in the statement. We 
have, I think, a very comprehensive communications and outreach 
program to help. If we are not communicating that message, and 
to do a better job, we have three regional conferences that we 
will be conducting.
    Ms. Norton. Mr. Gruber, I think the problem is with the 
Congress. It is not the first responders who are saying I am 
not going to get any money. I am hearing it from my colleagues 
sitting on my committees and in the Senate, who keep pointing 
out that there could--I mean, I heard a Member talk about a 
shopping mall, a Senator talk about a shopping mall, their 
biggest shopping mall. Hey, the last time I heard, the shopping 
mall ought to take care of the shopping mall and terrorist 
events at the shopping mall. I do not think that is the 
business of the United States Government.
    You see how out of hand the thinking on this is? If he were 
to focus, though, on natural disasters there, I think he would 
have a better chance.
    Let me ask why mitigation against hazards, other than 
terrorism is not included in the NPS? Everybody talks about 
prevention and nobody does anything about it?
    Mr. Gruber. Again, ma'am, it may not be spelled out in the 
specificity that we need, and we can make those corrections as 
we improve these documents, but in fact, it is a component of 
some of our grant programs. There are other programs that are 
being developed that will address mitigation and prevention 
from the perspective again of mitigation for building codes and 
fire hazards, but also prevention in terms of buffer zone 
protection for particular facilities, chemical facilities and 
others.
    So that is a component of the grant offerings, and you have 
made a good point. If we haven't spelled it out adequately in 
our current version of the Goal, then we need to correct that 
by the time we publish the final Goal.
    Ms. Norton. I wish you would take another look at that.
    Mr. Gruber. Yes, ma'am.
    Ms. Norton. Could I ask you to take another look at 
something else? And here I put on my legal hat.
    I want to commend the President for the action he took 
under executive order, but I am very, very concerned, given the 
fact that we have a Federal republic and a separation of 
powers, that we could have a national emergency, and if we are 
working only under this executive order and presidential 
directives, I am wondering if you can assure us that Federal 
emergency response authorities, like yourself, would have the 
authority to legally require local authorities to take certain 
kinds of actions.
    Now, you may be the prototype for what to do, because we 
have had hazards all along. but there have been so many of 
these presidential directives, I wonder if your counsel has 
looked closely at that issue so that we will not have somebody 
saying I do not think the national government has the authority 
to do this or that.
    Mr. Gruber. I would have to defer to Mr. Jamieson to answer 
that.
    Mr. Jamieson. Congresswoman, I can assure you, and the 
whole National Response Plan is, as is the National Incident 
Management System, built on the notion that we are going to 
respond and we are going to find the lowest level of governance 
that we can find, the incident commander. All of the resources 
that would be coming down, all of the support that would be 
available through the National Response Plan are there to 
support the incident commander. There is absolutely no intent 
in any of our plans, even the catastrophic supplement to the 
National Response Plan, to erode the prerogatives of State and 
local government.
    Ms. Norton. I am talking about something like an incident 
of national significance. We haven't had anything like that 
until after 9/11. All I am asking is, have lawyers scrubbed 
that so that somebody says, oh, my God, here is the Federal 
Government telling somebody at the State and local they must do 
that, but local statutes say this? That could get real 
complicated, by simply declaring the President may do this.
    Again, here is this committee ready to do what is 
necessary, but one wonders whether or not you would meet some 
Federal problem.
    Mr. Jamieson. Let me talk about the issue.
    Ms. Norton. I am not talking about resources now. I am 
talking about whether or not anyone has looked at this 
incidence of national significance, which could be a hazard of 
a kind we have had for some time and covering large sections of 
the country, or it could be a terrorist event.
    Mr. Jamieson. The incident of national significance is 
described in the National Response Plan and in Homeland 
Security Presidential Directive 5, there are five conditions 
that the President has delegated to the Secretary of the 
Department. But the incident of national significance is 
putting in motion the coordination mechanisms of the National 
Response Plan. It does not, for instance, trigger the Stafford 
Act in and of itself.
    There are conditions, as you know, for the natural disaster 
portion of this where we have to get a request coming up from 
local government, from the State and the governor asking for 
disaster assistance. So the incidence of national significance 
finding, what it is doing is putting in motion the coordination 
mechanisms to make sure that all the moving parts are now 
coordinated and understood.
    It is allowing us to set up a joint field office. It is 
allowing us to put in motion the authorities of the other 
Federal departments and agencies. But it is not, it is not a 
trigger, in and of itself, for any of that Federal assistance. 
It is just putting the Federal Government in a forward 
mobilized posture so that we can respond when these requests, 
when this situation assessment comes up from the incident 
commander.
    Ms. Norton. Thank you very much.
    Mr. Chairman, I know you want to go on now. I just wanted 
to let you know, Mr. Chairman, when there was that incident at 
the Pentagon Postal Service, I would have to ask you to have 
your counsel look at it, because we have Virginia coming back 
and saying only the Department of Health of Virginia could do 
certain things, like order that--what is the medicine that is 
given, Cipro be given. And all we have to do is substitute a 
natural disaster for that and you can see what I mean.
    I did not have any indication that there was something that 
we had in hand at the Federal level that we could do. As you 
know, there was no proper coordination there at all. Thank you 
very much.
    Mr. Shuster. This Stafford Act, the States and localities 
have to be overwhelmed before the Federal role comes in. Did 
the Federal Government step in to that incident at the 
Pentagon?
    Ms. Norton. No, but the coordination that Mr. Jamieson is 
talking about did not occur as he said should occur. Because he 
is saying it is just a coordination mechanism. If so, and if 
that was a test, it certainly did not work.
    Mr. Jamieson. Obviously, there are ongoing reviews for that 
situation at the State and also at the Federal level, but I am 
quite comfortable characterizing it. I think the communication 
there was not as good as it could have been, and we need a 
better communication to the State and local authorities in 
terms of what the situation was and what the appropriate 
response was.
    Mr. Shuster. Who makes the decision to activate the NRP, 
National Response Plan?
    Mr. Jamieson. If there is a disaster declaration that is 
coming in, a disaster declaration, in and of itself, would 
constitute an incident of national significance. But if another 
Federal agency, EPA, who may be dealing with a hazardous 
material spill is out there, and they are saying it is 
escalating, this event is going, another Federal agency can go 
to the Secretary of the Department and ask for assistance, 
which would connote an incident of national significance.
    So any of those four circumstances that are spelled out, 
and I do have those and I can provide those for the record, Mr. 
Chairman, as opposed to going through them here. But the 
important point that I want to emphasize is that that 
designation itself of an incident of national significance is 
not serving as a trigger for any of the other authorities that 
the Federal agencies have. There are conditions and criteria 
that need to be met under Stafford, there are conditions under 
the national contingency plan, there are conditions of the 
Bureau in terms of threats that they have to deal with.
    So what they are doing, as signatories to the National 
Response Plan, they are saying they are going to bring their 
authorities, but they are going to organize themselves within 
the construct of this National Response Plan. So it is a far 
more coherent and coordinated effort than it has been.
    Mr. Shuster. If something would occur here on Capitol Hill, 
that becomes a tricky problem because now turning the authority 
over to the executive branch, under the Constitution there is a 
separation there. How would something like that work; like the 
anthrax scare we had here?
    Mr. Jamieson. Well, there are constitutional issues there, 
and I will try not to speak to them, but on a very practical 
standpoint if there was a suspicious person who had a baggage 
that looked like it was a bomb or whatever it might be, local 
law enforcement and the Capitol Hill police are going to 
respond to that. What they are also going to do is contact the 
Bureau in the Strategic Information Operations Center. And 
there is going to be no hesitation whatsoever in terms of the 
Bureau coming in there and determining what the situation is.
    There then, automatically, the Bureau's operation center is 
notifying the Department of Homeland Security. And if that 
situation escalates, then an incidence of national significance 
can be declared. We will go out and merge with the joint 
operations center that the Bureau establishes. But at the same 
time, if it turns into nothing; that there is nothing in the 
suitcase, it is just a suspicious character, then there would 
obviously not be that designation.
    But I think the key point is that that designation of an 
incident of national significance, nobody is waiting for that. 
We are forward marching out there in terms of the Bureau's 
deployment, the Capitol Police's deployment to investigate the 
case and the situation that they have. If it does escalate, 
what we are saying by the National Response Plan, is we are 
putting together a common mechanism so that the Bureau, the 
Department, EPA, if necessary, HHS, if they are required, we 
are going to come together and fight as one team. That is what 
the National Response Plan does. It provides that coordination 
structure.
    Mr. Gruber. Mr. Chairman, could I just add that we would be 
remiss if we did not mention that just a week ago we completed 
the TOPOFF for top officials, exercise, the third exercise of 
its kind that we had done. One of the most important objectives 
of that exercise was, in fact, to put the National Response 
Plan into action, to be able to test it. We did that with the 
State of New Jersey and the State of Connecticut.
    So we are confident that we will have many lessons that get 
to Congresswoman Norton's points about the relationship with 
the States and local jurisdictions that will help us better 
understand how to apply these protocols.
    Mr. Jamieson. If I may, Mr. Chairman, to that point, one of 
the areas that was really discovered during the exercise 
itself, and creatively so, was why was there not a declaration 
in one of these instances. Well, quite frankly, the answer to 
that question is that there was not a request from the State 
and local government for a declaration under the Stafford Act.
    So we are always going to be deferring to the State and 
local interests to make sure we are not unilaterally riding 
over their capabilities and that they need us.
    Mr. Shuster. I think that is very important that you are 
paying attention to their situation and their thoughts.
    I want to now recognize Mr. Dent.
    Mr. Dent. Mr. Chairman, I think you started to answer this, 
but I will ask the question anyway. I attended that TOPOFF 
exercise up in New Brunswick at the Robert Wood Johnson 
Hospital, and for the seemingly biological attack on North 
Central Jersey. And as I understood it, the Stafford Act, it 
was not possible to implement the Stafford Act because of that 
incident, the TOPOFF; is that correct?
    Mr. Jamieson. No, it is not a correct characterization of 
that. We have authority under the Stafford Act to declare--
    Mr. Dent. A major disaster declaration.
    Mr. Jamieson. A major disaster declaration is a different 
issue. There is not provision for a major disaster declaration 
within the Stafford Act. But there is provision in the Stafford 
Act for an emergency declaration that can be made that would 
permit us to do anything we need to do to save lives and 
protect property. The authority, however, on that biological 
event is that that clearly is an HHS lead on that, so it would 
be HHS using their authority to respond to that particular 
incident.
    Mr. Dent. So the answer then is, you could not, under the 
Stafford Act, declare that incident a major disaster 
declaration?
    Mr. Jamieson. We could not have declared it a major 
disaster declaration without a request coming up from the 
governor. Then, if there were collateral issues associated with 
that, in other words you do not want the Department going in 
under Stafford on a biological event when it is clearly an HHS 
lead. But if there were collateral issues coming up associated 
with that, a need for temporary housing assistance or what have 
you, we could do what we needed to do under our emergency 
authorities of Stafford.
    Mr. Dent. Okay. Thank you, Mr. Chairman.
    Mr. Shuster. Ms. Norton?
    Ms. Norton. Thank you very much, Mr. Chairman. Just one 
more question.
    Mr. Gruber, in your testimony, you spoke of the many 
partners with whom you were working, State, local, tribal, 
private sector, and nongovernmental. I really have a question 
about that.
    It occurs to me that private industry has a huge incentive 
on its own to move probably well in advance of some of us. 
They, for example, are in touch, have long been in touch with 
their counterparts in Europe and in the Mid East and in South 
America. It occurs to me they know a lot more about some of 
this than any of us in the Federal Government and that they may 
be some distance ahead of us, at least in some valuable 
respects.
    I wonder whether these standards and tasks, capabilities 
that you are in the process of developing are consistent with 
existing industry standards, such as the Emergency Management 
Accreditation Program. I note, for example, that my own city is 
one of only four jurisdictions that have this EMAC 
certification, yet this comes out of private industry.
    Can we do better than that, or are we trying to meet that 
standard?
    Mr. Gruber. Ma'am, that is an excellent question, and MFPA 
1600 or Emergency Management Accreditation Association is an 
excellent model. Former Secretary Ridge was a great proponent 
of EMAP, as is Secretary Chertoff.
    We have been talking to EMAP program staff. Just yesterday, 
Gil and I were at the rollout for the NIMS/NRP talking with Tom 
Lockwood about a collaboration to look at that, because it is a 
great model for us to use. We certainly don't want to reinvent 
something when we have a proven standard that has been well 
tested and validated. Of course, we will look and adopt where 
we have a great standard to use. We want to capitalize on that.
    Ms. Norton. I certainly want to encourage consistency 
between what I understand to be very highly regarded industry 
standards and Federal Government standards, and I hope you read 
off of their playbook, because I know people who answer to 
stockholders and have their own private resources at stake have 
had an incentive that perhaps none of us have had. I would hate 
to see us going and inventing our own wheel, except insofar as 
we are tailoring what we do to the special circumstances of the 
public sector.
    Mr. Gruber. Ma'am, if I might add, I am sure you will hear 
a lot more about TOPOFF in the future, but our recent 
experience with TOPOFF3, if my numbers serve me right, that we 
had about 156 corporations or businesses that participated in 
TOPOFF3. This was unprecedented.
    One of the things we learned from that was exactly the 
point you made, that in terms of agility and speed of 
decisionmaking, there are plenty of lessons we could learn from 
those participants. And we have businesses that were playing 
from the corporate level. Their CEOs were participating during 
the course of that week. So, I am confident, as we go through 
all the data from the exercise, that there will be some great 
lessons for us to adopt as well.
    Ms. Norton. Thank you very much.
    Before I came to Congress, I served on the board of three 
Fortune 500 companies, and I do not for a moment think that 
they were not prepared, they were worldwide, to deal with 
whatever they had to deal with. So I urge us to look closely at 
what industry has done.
    Thank you very much.
    Mr. Shuster. Mr. Dent.
    Mr. Dent. Thanks, Mr. Chairman.
    I serve on the Homeland Security Committee, and I just left 
a few hearings today dealing with H.R. 1544, the Smarter 
Funding For First Responders Act, which tends to allocate our 
first responder dollars out on a risk assessment or 
vulnerability basis as opposed to a greater minimum or straight 
population criteria.
    Could you just give me your thoughts and perspectives on 
that legislation? Is that compatible or dovetail with what you 
are advocating here today?
    Mr. Gruber. Well, obviously there are great discussions 
underway, sir. It would probably be inappropriate for me to 
comment on that because I know there is still a dialogue 
underway. But you raise a great point, and that is the 
Secretary, of course, has affirmed every time he has testified 
to that.
    We have to look at that, as he calls it, a strategic mix of 
threat, vulnerability and consequence, as the best means to 
ensure that we allocate our resources and make the most cost-
effective investments with our homeland security dollars, and 
get the most payoff, the most leverage from those in terms of 
whether it is terrorist events or natural hazards.
    So we are committed. Again, we are not--what we are talking 
about with HSPD-8 is not a funding formula, it is really a way 
to help decisionmakers make smarter and more informed decisions 
about their capability investments.
    Mr. Dent. Finally, I know I mentioned TOPOFF a few moments 
ago. I apologize for not being here to hear your opening 
testimony. Were you actively involved in TOPOFF exercises in 
Connecticut or New Jersey?
    Mr. Gruber. Both of us were.
    Mr. Dent. You were on site?
    Mr. Gruber. No, sir, I was in the master control center 
here in Washington.
    Mr. Dent. Okay. You were both down here in Washington for 
that exercise?
    Mr. Jamieson. Yes. I was here in Washington also and 
actively involved in the advanced distance learning exercises 
that led up to that for both NRP and the NIMS.
    Mr. Dent. Are you permitted to comment on what your 
thoughts and perspectives were on how that exercise has gone? I 
know there will be a lot of review and analysis of what 
occurred, but can you give us any preliminary indication of how 
you felt that exercise went?
    Mr. Gruber. I think he will talk about the plan. I can just 
give you some background on the overall exercise.
    Mr. Jamieson. Yes, the exercise did do the National 
Response Plan. I think it is important that when we comment 
here, these exercises are important to tell us what we don't 
know, what is working well and what is not working well.
    What did come out of that is the fact that the National 
Response Plan stood tall. It worked. The coordination 
mechanisms that were there, the fundamental underpinnings of 
the National Response Plan worked very well. Are there issues 
that need to be worked on to improve communication awareness in 
terms of these core national structures and how they work 
better, what the connection points are to State and local 
governments? Absolutely. But from a systemic standpoint, and 
from the concept of operations of the National Response Plan, 
it worked very well.
    Mr. Dent. Just my own comment to you, just as an observer, 
it seemed like the real success of that whole operation was not 
what occurred during those few days of the actual exercise, but 
all the planning that led up to it.
    Mr. Jamieson. Yes, I agree.
    Mr. Dent. That hopefully you would find out from those 3 or 
4 days that here is your plan, and then you can just kind of 
look back on the process, what you could do better. But I think 
the success was just going through the exercise, all the steps 
that were required. I was impressed by all the numbers of 
people--just at the hospital--I only saw one little piece of 
the puzzle and, I was just impressed by the level of detail, 
professionalism of all the people involved and how well 
orchestrated and planned this was. Just the number of people 
involved was just overwhelming in the private sector, the 
hospitals and from the various departments.
    Mr. Jamieson. I appreciate those remarks.
    Mr. Gruber. I might just add in terms of context--and, 
again, these are preliminary numbers because, as you can well 
imagine, we had literally hundreds of data collectors out there 
at every part in this exercise. So we are talking about file 
cabinets full of information that we got. But our preliminary 
numbers, we are looking at somewhere in the neighborhood of 
23,000 people that participated in this exercise. That doesn't 
include the people we reached through our collaborative Web 
tools and the distance learning that Gil talked about.
    Mr. Dent. It is very impressive. Thank you.
    Mr. Shuster. I have one more question. The Homeland 
Security Presidential Directive-8 specifically excludes broader 
law enforcement efforts to prevent terrorism. But in the NIMS, 
the national preparedness goal, the target capabilities list 
and universal task list include activities such as heightened 
inspection, improved surveillance and security operations, 
deterrence operations, activities that seem to fall squarely 
within that exclusion category.
    How do you sum that up? How do you justify that?
    Mr. Jamieson. I can do that, sir. HSPD-8 obviously talks 
about that in the context of some portions of that that are 
exclusively the domain of other departments and agencies. So 
the whole process of development. For example, we formed the 
senior steering committee to help guide us through the course 
of this implementation of HSPD-8.
    The Department of Justice was a member of the senior 
steering committee. We are working with the Department of 
Justice, the Bureau, other elements of the Intelligence 
Community, all--what we have to do is make sure that the 
capabilities we are developing support their mission 
requirements as well and support what State and local officials 
have told us are very high and urgent needs that they have in 
terms of information-sharing and collaboration in the 
intelligence arena as well.
    So while we fully understand what the directive told us to 
do, and we are staying in our lane, we also understand we have 
an obligation to support our partners.
    Mr. Shuster. Thank you.
    Before you leave, I would just like to say I think you are 
on the right track. I think you have done a good job. I know 
the timetable is very tight. I am especially impressed with 
NIMS and the NRP. But I think that there is more work to be 
done on the national preparedness goal, especially, I think, it 
needs to be comprehensive. At this point I don't believe it is 
comprehensive. We would like to--I would like to and this 
committee would like to help you move forward on that. I think, 
as I said, you are moving in the right direction.
    Again, thank you very much for being here, and you are 
excused.
    Mr. Gruber. Thank you, sir.
    Mr. Jamieson. Thank you, Mr. Chairman.
    Mr. Shuster. We are going to have to go into a recess here. 
That second panel can--well, you can take your seats or just 
relax. We are going to have to go vote. It is going to probably 
be about 25 minutes to half an hour we will be on the floor. I 
apologize for that. I guess that is the hazards of having to 
vote and pass laws. So we will be back at around 3:30, my good 
guess. Thank you.
    [Recess.]
    Mr. Shuster. I will call the meeting back to order. I was 
off by about 15 minutes. I am sorry about that.
    I will welcome the second panel today, which is comprised 
of a number of State and local officials as well as 
representatives from the NGO sector, each of whom individually 
on behalf of their respective organizations has significant 
responsibilities during disasters of all types.
    Joining us today are Mr. David Liebersbach. How is that?
    Mr. Liebersbach. Great.
    Mr. Shuster. President of the National Emergency Management 
Association, as well as being the director of the State of 
Alaska's Division of Homeland Security and Emergency 
Management; Chief John Buckman, representing the International 
Association of Fire Chiefs, as well as being the fire chief of 
German Township, Indiana; Captain John Salle--
    Mr. Salle. Salle, Mr. Chairman.
    Mr. Shuster. Pronounce it again.
    Mr. Salle. Salle.
    Mr. Shuster. Thank you--representing the International 
Association of Chiefs of Police; Mr. Armond--
    Mr. Mascelli. Mascelli.
    Mr. Shuster. My Italian is not very good--Mascelli, vice 
president of emergency response for the American Red Cross; Mr. 
Dewayne West, who is here wearing several hats as vice chairman 
of the Emergency Management Accreditation Program, president of 
the International Association of Emergency Managers, and as the 
director of emergency management for Johnston County, North 
Carolina.
    Welcome to you all.
    Since your written testimony has been made part of the 
record, the subcommittee would request that all witnesses limit 
their oral testimony to 5 minutes, and there will be time for 
questions after the witnesses have offered their prepared 
remarks.
    We are going to start with Mr. West, because I understand 
you have a flight to catch.
    So go ahead, Mr. West.

TESTIMONY OF DEWAYNE WEST, VICE CHAIRMAN, EMERGENCY MANAGEMENT 
  ACCREDITATION PROGRAM COMMISSION, PRESIDENT, INTERNATIONAL 
   ASSOCIATION OF EMERGENCY MANAGERS, DIRECTOR OF EMERGENCY 
     MANAGEMENT, JOHNSON COUNTY, NORTH CAROLINA; DAVID E. 
     LIEBERSBACH, PRESIDENT, NATIONAL EMERGENCY MANAGEMENT 
   ASSOCIATION, DIRECTOR, DIVISION OF HOMELAND SECURITY AND 
EMERGENCY MANAGEMENT, STATE OF ALASKA; CHIEF JOHN BUCKMAN, PAST 
   PRESIDENT, INTERNATIONAL ASSOCIATION OF FIRE CHIEFS, FIRE 
    CHIEF, GERMAN TOWNSHIP, INDIANA; CAPTAIN JOHN P. SALLE, 
   INTERNATIONAL ASSOCIATION OF CHIEFS OF POLICE; AND ARMOND 
 MASCELLI, VICE PRESIDENT OF EMERGENCY RESPONSE, AMERICAN RED 
                             CROSS

    Mr. West. Thank you, Chairman Shuster.
    I appreciate the opportunity to speak to you this afternoon 
and to talk about some recent Federal preparedness initiatives. 
I am Dewayne West, vice chairperson of the Emergency Management 
Accreditation Program Commission, commonly known as EMAP, and 
director of Johnston County's emergency management program, and 
have currently had the pleasure of serving as president for the 
international association. But today I am wearing the EMAP 
Commission hat, which is the governing board of the only 
national assessment and accreditation process for local and 
State emergency management.
     EMAP is a nonprofit accrediting body dedicated to the 
improvement and excellence in public sector emergency 
management. On behalf of the EMAP Commission, thank you for the 
opportunity to be part of the committee's examination of the 
work done to date on HSPD-5 and HSPD-8.
    We recognize that significant work has been accomplished in 
these areas. The National Response Plan, while still being 
implemented, is a step in the right direction to strengthen 
coordination of response activities across Federal agencies.
    With the potential to improve Federal response and 
assistance, the National Incident Management System, or NIMS, 
is a positive step as well to address the need for a more 
consistent approach to incident management. While many State 
and local governments already use an incident management 
system, EMAP assessments have confirmed the need for greater 
consistency in the use of and terminology within incident 
management.
    We note, however, that there appears to be gaps in the 
coordination across HSPD-5 and 8 projects, the question being 
how core concepts of one document work with the features of the 
other.
    Because assessment, benchmarking, and continuous 
improvement in comprehensive preparedness and emergency 
management are EMAP's focus and mission, my comments today will 
be largely directed towards HSPD-8 implementation activities.
     EMAP, the Emergency Management Accreditation Program, 
started as a concept in the late 1990s when State and local 
emergency managers, with support from their Federal partners, 
identified the need for national standards and a consistent 
assessment methodology for State and local government emergency 
management.
    EMAP assesses a jurisdiction's system for dealing with 
natural and human-caused disasters and has conducted baseline 
assessments using its national standards in 35 States and 
territories. In my comments today, I will touch on a couple of 
areas related to the National Preparedness Goal and Target 
Capabilities List, or TCL, and our concerns about potential 
impacts of this initiative as it is currently outlined.
    First and perhaps most directly, if the expectation is that 
HSPD-8 materials, the Target Capabilities List, National 
Preparedness Goal and planning scenarios, will provide a 
comprehensive assessment of preparedness, we would simply say, 
no, that objective or expectation has not yet been achieved.
    Next I encourage you to seek ways to ensure that proposed 
solutions support progress in balance with the burden that they 
impose on your constituents at the local and State level.
    There are several points at which we are concerned that 
HSPD-8 implementation activities assume a start-from-scratch 
approach to preparedness. There are multitudes of State and 
local plans, procedures and programs throughout the Nation, and 
as we have communicated to colleagues at DHS, an attempt to 
recreate all of them would not be a wise or effective use of 
time and resources.
    For our communities and States and, therefore, the Nation, 
to be prepared for a terrorist attack, the foundation for 
preparedness must be strengthened rather than distracted. A 
strong foundation that includes hazard identification and a 
multidisciplinary, multiagency approach to resource management, 
planning, communications, training, exercising and public 
education must be supported and strengthened to ensure 
preparedness. This foundation is vital, whether the community 
experiences spring flooding or a radiological dispersal device. 
It is these foundation capabilities that are evaluated through 
the EMAP standards and process.
    The fact that the Federal Government has created a large 
Department of Homeland Security may foster somewhat of a 
misconception that I am sure you are aware of from your work 
with State and local leaders. While there are departments and 
individuals at the State and local levels who handle 
prevention, preparedness, response and recovery functions, and 
there may even be a few new offices or positions labeled 
"homeland security," there is no substantial new bureaucracy 
available to handle the increased workload and requirements of 
evolving and demanding Federal homeland security initiatives. 
These are by and large the same people and the same offices, 
retasked or multitasked, as those responsible for emergency 
management, law enforcement, public safety or emergency 
response.
    We ask that this reality be understood and that you seek to 
improve preparedness in ways that build on existing 
capabilities, filling gaps and strengthening systems rather 
than reinventing the wheel. We are concerned that promulgation 
of HSPD-8 compliance requirements will occur before the 
potential for duplication and dilution of existing State and 
local practices and plans have been considered.
    We suggest that our Federal agency partners focus first on 
the seven national priorities outlined in the National 
Preparedness Goal, and encourage State and local governments to 
evaluate capabilities in these areas of urgent need using the 
Target Capabilities List as a tool. Then we need to make sure 
that both the capabilities in these areas are coordinated and 
dovetailed with existing plans and systems. On this key issue, 
we hope DHS understands that it does not need to create an 
entirely new preparedness assessment methodology, but it can 
and should do what makes sense, and that is to build upon 
existing standards and assessment processes such as EMAP, using 
State and local governments throughout the country.
    Again, thank you for the opportunity to talk with you for 
your help in building stronger and more sustainable 
preparedness capabilities.
    Mr. Shuster. Thank you, Mr. West. Feel free any time you 
have to excuse yourself, go ahead. We appreciate your being 
here. Sorry we didn't get this started earlier.
    Next, Mr. Liebersbach, you may go ahead and proceed.
    Mr. Liebersbach. Thank you, Chairman Shuster, for allowing 
me the opportunity to testify before your committee.
    I am Dave Liebersbach, director of the Alaska Homeland 
Security Emergency Management, but today I am here as president 
of NEMA, whose members are the directors of emergency 
management for the 58 States and territories and the District 
of Columbia.
    I have three issues that I bring before you today to 
discuss regarding the state of our Nation's preparedness: 
organization of the preparedness system; development of the 
National Response Plan or requirements for State and local 
governments; and development of the Homeland Security 
Presidential Directive 8 on preparedness and our concerns for 
the timelines and requirements.
    On our Nation's preparedness system, last year DHS proposed 
creation of a one-stop shop for homeland security funding, 
which led to some preparedness grants to be moved to the newly 
created Office of State and Local Coordination and 
Preparedness. Some preparedness functions were also moved out 
of FEMA.
    While many of these changes have improved some of the 
Nation's preparedness functions, changes that separate 
preparedness functions once in FEMA from FEMA's response and 
recovery function will complicate and compromise our Nation's 
ability to respond to and recover from disasters.
    Preparedness means personnel, planning, training and 
exercise for all aspects of a disaster. Preparedness functions 
cannot be isolated from response and recovery because they are 
linked together. As Congress and DHS review the organization 
and functions of the Department, we ask that preparedness not 
be separated from emergency response and recovery functions.
    Additionally, as the fiscal year 2005 funding has been 
proposed, NEMA has been working alongside the Office of State 
and Local Coordination and Preparedness to ensure that the all-
hazards intent of the Emergency Management Performance Grant 
Program, the EMPG, is not changed with the creation of the one-
stop shop. EMPG is the only all-hazard source of Federal 
funding for State and local emergency management capacity 
building.
    Integrating the EMPG funding into the homeland security 
grant program has resulted in a bureaucratic grant system where 
none existed previously. Only half of the Nation's emergency 
managers serve as the State administrative agency, which 
receives all the homeland security grants for disbursement. 
This has caused significant delays and financial hardship for 
State and local emergency management agencies. NEMA hopes to 
work in partnership with Congress and DHS to resolve these 
issues in the coming year to ensure swifter grant awards in 
fiscal year 2006. Specifically, we ask Congress to decouple 
EMPG funds from the homeland security grant program.
    National Response Plan. NEMA supports the National Repose 
Plan released by DHS as the comprehensive all-hazards tool for 
domestic incident management across the spectrum of prevention, 
preparedness, response and recovery.
    The NRP comes as a result of Federal, State and local 
government partnership. NEMA was actively involved in the State 
and local working group that reviewed drafts of the NRP and 
proposed changes as the NRP was developed by the Department.
    The process used for developing the NRP initially was not 
an easy road. State and local governments had no input into the 
early version of the NRP, which led to significant outcry from 
the emergency preparedness community when the draft was 
released. NEMA commends DHS for listening to the concerns we 
have with the initial process and then adapting the process in 
progress. NEMA calls on Congress to ensure that DHS continues 
to maintain consultation with stakeholders as they develop 
critical national policy and implementation strategies.
    A key component of the NRP requires State and local 
governments to update their emergency response plans to reflect 
the new National Response Plan. However, no dedicated Federal 
funding is provided to update these plans. At a time when all 
resources are taxed to meet the new threat environments, State 
and local governments are forced to utilize current funding 
streams to address additional new mandates.
    On HSPD-8, another critical component to improving the 
Nation's preparedness was the release of the Homeland Security 
Presidential Directive-8 on national preparedness. NEMA 
supports efforts to develop national preparedness goals and 
accompanying standards that help the Nation to work towards 
common levels of preparedness.
     HSPD-8 is another process where NEMA is assisting with 
input in developing the system, yet we continue to have to 
concerns regarding the process and the final product. The 
opportunity to impact real change is limited due to the rigid 
timelines required of DHS. Increased State and local government 
involvement in the national preparedness guidance, metrics on 
performance, adoption of the goal, and implementation, must be 
a critical component of the Federal Government's objective with 
HSPD-8 if the process is to avoid a situation similar to what 
initially occurred at the time of the NRP.
    There are five other areas regarding HSPD-8 that must be 
addressed as the National Preparedness Goal moves forward. One, 
only 3 of the 15 national planning scenarios are not terrorist 
attacks. Changing the focus of preparedness to weigh heavily on 
terrorism could hamper the ability of State and local 
governments to respond to the wider range of all hazardous 
events which have a higher likelihood of occurrence.
    Two, development of HSPD-8 and the guidance for 
implementing the new National Preparedness Goal must take into 
account existing standards programs such as the EMAP.
    Three, timelines for implementation of HSPD-8 are very 
tight and must be seriously considered, reconsidered for not 
only practical application, but also for buy-in for the 
personnel and stakeholders who will be required to implement 
the goal.
    State and local governments will be required to conduct 
comprehensive assessments and update their statewide homeland 
strategies by the end of the current year in order to be 
available for fiscal year 2005 Federal preparedness assistance 
funds. That is a mere 6 months to accomplish these major tasks.
    Four, baseline funding for emergency management capability 
or capacity building to ensure national preparedness against 
all hazards must be maintained.
    Finally, five, mutual aid must be considered a critical 
component of State and local preparedness, as evidenced by last 
year's hurricanes. The Emergency Management Assistance Compact 
enabled 38 States to provide assistance in the form of more 
than $15 million in human, military and equipment assets to 
over--and over 800 personnel to support the impacted States for 
over 85 days of continuous response operations.
    In conclusion, as we continue to build national 
preparedness efforts through the Department of Homeland 
Security, we must not forget about the need for a balanced all-
hazards approach.
    Thank you for the opportunity to testify on behalf of NEMA.
    Mr. Shuster. Thank you.
    Chief Buckman, go ahead and proceed.
    Chief Buckman. Chairman Shuster, I am John Buckman, Chief 
of the German Township Volunteer Fire Department in Evansville, 
Indiana. I appear today on behalf of the International 
Association of Fire Chiefs in my role as a past president of 
that organization. I am also a member of the State, Tribal and 
Local Working Group for the Department of Homeland Security 
that since August of 2003 has been involved in reviewing the 
development of the new national preparedness system.
    On December 17, 2003, the President issued HSPD-8, which 
purpose is to strengthen the preparedness of the United States 
by creating a national all-hazards preparedness goal for 
facilitating cooperation among all levels of government.
    The IAFC is generally supportive of the national 
preparedness system that has at its core a new partnership 
between all levels of government, including the private sector. 
I represent the IAFC in the development of the NF process and 
would like to commend the DHS staff for their diligent work to 
address the concerns of first responders. This system 
represents a new philosophy on the part of Federal, State, 
tribal and local governments and the private sector, with roles 
and responsibilities clearly defined for each. All of these 
stakeholders must embrace their new roles and responsibilities 
in order to make this system truly effective.
    The IAFC strongly supports a number of specific priorities 
in the Interim National Preparedness Goal, including 
strengthening interoperable communications capabilities. The 
lack of interoperable communications is one of the greatest 
threats to our public safety. At both Oklahoma City and the 
Pentagon, incident commanders had to use human runners to 
communicate with each other. The 9/11 Commission report details 
how the lack of interoperability communications proved fatal 
for 343 firefighters in the World Trade Center towers.
    I would urge the members of this committee to support 
legislation to set a certain date for clearing the 700 
megahertz spectrum for public safety use.
    We also support the implementation of NIMS and the National 
Response Plan and expanding regional collaboration. The NIMS is 
a multidisciplinary document that provides direction, 
organization and control to any agency responding to a 
disaster, not just police and fire.
    The NIMS/NRP provide a badly-needed template for Federal, 
State, local and tribal government to coordinate their response 
to a disaster. By using the NIMS and NRP, local jurisdictions 
can work together to develop regional mutual aid agreements.
    We also support strengthening information-sharing between 
the Federal, State and local governments. DHS should develop a 
system to communicate instantly with the fire chief in times of 
threat or increased risk to our community. The local fire 
department, the local fire chief must have better information 
to prepare for the threats that they face.
    I would like to raise a few issues about the National 
Preparedness System for the committee's consideration. One of 
the most critical aspects of the National Preparedness System 
is its focus on, or what may be a lack of focus on, an all-
hazards response.
    While the firefighters responded to acts of terror against 
the World Trade Center in 1993, Oklahoma City in 1995, the 
horrendous events of 9/11, 2001, we also responded to numerous 
major accidents and natural disasters each and every day in the 
intervening years. To be truly effective, the National 
Preparedness System must be designed to address the response by 
all agencies to these events.
    Unfortunately, only 2 of the 15 National Planning Scenarios 
are for natural disasters, planning and funding for training 
and organizational structure will be impacted by this 
limitation. Ideally these scenarios would include tornadoes, 
wildfires and flooding. Without the inclusion of all types of 
hazards, the National Preparedness System will be biased 
towards terrorism response and run the risk of being inadequate 
for dealing with more frequent natural disasters.
    In addition, the National Preparedness Policy and guidance 
documents should be written so that they could be easily 
understood by the firefighter in the field.
    The IAFC believes that fire chiefs and other senior fire 
officials should be appointed to positions within the Office of 
Homeland Security and in other key positions within the 
Department to ensure that the fire service continues to be 
involved in the development of the National Preparedness 
System. An example where the fire service is missing is at the 
Homeland Security Operating Center. We have a table of managers 
from a variety of organizations, but the fire service is not 
there. The fire service is one of the first responders to a 
disaster, and we are not sitting at the table where a Federal 
policy will be decided and implemented.
    The IAFC would also encourage the Office of State and Local 
Government Coordination Preparedness to consult with the 
national--with the United States Fire Administration and other 
agencies. USFA will conduct most of the training of the fire 
service on NIMS and NRP, and it collects data that will play an 
important role in the National Preparedness System.
    Mr. Chairman, the United States Fire Administrator Dave 
Paulison needs to be intimately involved. In 2002, we asked 
that the U.S. Fire Administrator be at the assistant secretary 
level. We have never accomplished that. But we believe that the 
Fire Administration and the needs of the fire service, because 
of the position of our Fire Administrator, are not always being 
adequately addressed.
    In conclusion, Mr. Chairman, thank you again for holding 
this hearing. The National Preparedness System is in its 
formative stage and will require congressional and public 
support to become a reality.
    Thank you.
    Mr. Shuster. Thank you, Chief.
    Next up, Captain Salle.
    Mr. Salle. Salle.
    Mr. Shuster. Salle, sorry.
    Mr. Salle. Thank you, Mr. Chairman, members of the 
subcommittee. On behalf of the International Association of 
Chiefs of Police, I am pleased to join you here this afternoon 
to discuss the National Preparedness System and its application 
to the threats posed to our community, whether they are posed 
by terrorists or by natural hazards or major accidents.
    As you may know, the IACP, with more than 20,000 members in 
over 100 countries, is the world's oldest and largest 
association of law enforcement executives. Founded in 1893, the 
IACP has dedicated itself to the mission of advancing the law 
enforcement profession and aiding our members in their efforts 
to protect the citizens they serve.
    Over the past 3 years, the IACP has worked very closely 
with a number of Federal agencies, including the Department of 
Homeland Security, the Department of Justice and the Federal 
Bureau of Investigation. This work has been done to ensure that 
the needs, capabilities and concerns of the Nation's law 
enforcement agencies were taken into consideration as our 
Nation responded to the menace of terrorism.
    For the past 32 years, I was privileged to serve as a 
member of the Oregon State Police. Upon my retirement in 
February of this year, I was the director of the Oregon State 
Police Office of Public Safety and Security. In addition to 
that function, I served as the deputy director for the Oregon 
Office of Homeland Security. In addition to those functions, I 
have the privilege to be a part of the Department of Homeland 
Security's State, Local and Tribal Working Group. Through this 
working group, the IACP has been intimately involved in the 
development of the NIMS, National Incident Management System, 
and the NRP and various components of Homeland Security 
Presidential Directive 8.
    This group, this State, Local and Tribal Working Group, has 
been meeting on a consistent basis for the past 2 years. Its 
membership consists of a number of national organizations, and 
in the interest of time, it is in the written testimony, and I 
will refrain from listing all of those organizations.
    But as you examine that roster, you can certainly tell that 
the working group encompassed a wide variety of public safety 
agencies. This ensured that our efforts were well balanced and 
represented the concerns of many disciplines.
    As a result of this balance, the working group was able to 
incorporate the views of actual practitioners into the drafts 
of national policies that have been developed. In this fashion, 
we have worked closely with DHS to ensure that the policy 
documents they have produced are comprehensible, not being 
overly prescriptive in dictating a one-size-fits-all approach 
to State, local, public and tribal safety agencies.
    Through my participation in this group, and in my 
experience with the Oregon State Police, I witnessed that the 
coordinated Federal policies implemented as a result of HSPD-5, 
7 and 8 have indeed resulted in a significant increase in 
cross-discipline planning, training and exercising. In 
addition, noticeable progress has been made in equipping public 
agencies with interoperable communications equipment. It is 
important to note that these efforts on the Federal, State, 
tribal and local level, although somewhat focused on terrorism, 
are creating a level of preparedness that applies to any 
hazard.
    Simply put, if first response agencies plan together, train 
on a common command and control structure, and jointly exercise 
those capabilities, the creation of a better, more unified 
response to any catastrophe or hazard is inevitable.
    The next step in this critical process is combining the 
National Response Plan and the NIMS with a national 
credentialing and equipment typing protocol. In this way we can 
assure that Federal, State, tribal and local public safety 
agencies not only have the proper command and communications 
structure in place, but that all components will be properly 
trained and equipped.
    For example, under this scenario, a SWAT team or a bomb 
squad could travel to the next city or region, assume the 
appropriate function within the existing incident command 
system, set to work in a terrorism situation or in any 
situation requiring the skills set that they bring. At the same 
time, because of national credential and equipment typing 
protocols, the incident commanders would know exactly what 
capabilities and assets this unit provides.
    In conclusion, Mr. Chairman, I believe that for the last 3 
years, we have made significant progress at our efforts to 
integrate and coordinate the activities of tens of thousands of 
Federal, State, local and tribal public safety agencies that 
operate within the United States. But it is important to 
remember that we are far from finished. The policies that have 
been crafted to date are dynamic, living works that will 
improve over time with lessons learned and the establishment of 
best practices. The IACP firmly believes that the benefits to 
be gained through the establishment of common command and 
communications that will allow for a coordinated, collective 
response to disasters, whether natural or manmade, make these 
efforts extremely worthwhile.
    Thank you.
    Mr. Shuster. Thank you, Mr. Salle.
    Next, Mr. Mascelli.
    Mr. Mascelli. Thank you, Mr. Chairman, for your gracious 
invitation to testify at this hearing.
    Mr. Shuster. Will you pull your microphone a little closer 
to you.
    Mr. Mascelli. My name is Armond Mascelli, and I am vice 
president for domestic emergency response for the Red Cross. In 
the interest of time and priority attention, I will limit my 
remarks to the role of the Red Cross in prepared disaster 
response and some related concerns and recommendations, the 
National Incident Management System, the National Response Plan 
and the National Preparedness Goal.
    Chartered by Congress in 1905, the Red Cross provides a 
unique community-based network to support all-hazard disaster 
preparedness and response throughout the United States and 
within your district on an everyday basis. As a key member of 
the first responder community with expertise in meeting human 
needs caused by disasters, the Red Cross is integrated into 
State and local government disaster planning, exercises and 
response efforts. While systems and strategies are important, 
the public is our client to whom we ultimately direct our 
services.
    Mr. Chairman, this hearing is timely as the Red Cross has 
completed the TOPOFF 3 exercise. We have participated in all 
three TOPOFF exercises to date. While we remain concerned that 
the overall exercises have not yet addressed the long-term 
human needs of disaster victims, TOPOFF 3 did effectively test 
the critical role that the Red Cross plays in enhancing the 
Nation's disaster preparedness and response capabilities under 
the National Response Plan.
    Mr. Chairman, I would like to take a moment to elaborate on 
our work with the Department of Homeland Security and other 
Federal agencies during the development of the National 
Response Plan and the National Incident Management System, or 
NIMS.
    As for NIMS, we believe it can be an effective tool for 
communicating, a consistent nationwide approach for governments 
at all levels, the private sector and nongovernmental 
organizations. NIMS has the potential to foster greater 
efficiency and effectiveness within the disaster community to 
prepare for and to respond to and recover from domestic 
incidents.
    Building on Red Cross responsibilities under the old 
Federal Response Plan, we are actively engaged in policy 
decisions with the Department of Homeland Security throughout 
the development of the National Response Plan. A comprehensive 
list of our roles in the National Response Plan is respectfully 
submitted for the record. Specifically, the Red Cross serves as 
a primary agency for mass care, which involves a provision of 
food, emergency shelter, first aid, welfare or inquiry 
information and the bulk distribution of emergency relief 
items.
    The Red Cross also serves as a support agency to the 
Department of Health and Human Services for public health and 
medical services. This involves providing blood, blood products 
in coordination with the American Association of Blood Banks, 
and also the provision of mental health and disaster health 
services.
    We have also undertaken and expanded function under the 
National Response Plan with respect to public information to 
help disseminate accurate and timely information to those 
affected during an incident.
    Under the National Response Plan's Catastrophic Incident 
Annex, the Red Cross is responsible for providing mass care 
during an incident that results in extraordinary levels of mass 
casualties or severe population disruptions.
    In short, we are partnering with the Department of Homeland 
Security to move beyond the day-to-day and annual natural 
disasters to address scenarios previously unimaginable.
    To fully execute our responsibilities, the Red Cross 
developed the Mass Care Catastrophic Planning Initiative, which 
outlines a three-phased strategy to address individual 
community catastrophic disaster mass care planning, 
preparedness and capacity building. During phases 1 and 2, the 
Red Cross can help establish the necessary mass sheltering and 
feeding plans in the 30 largest United States Metropolitan 
Statistical Areas, which cover the 50 Urban Area Security 
Initiative cities designated by the Department of Homeland 
Security. In phase 3 we can initiate the necessary activities 
to enhance and sustain the systems and measures established 
during the first 2 years.
    While we welcome the challenge of this important role, we 
remain concerned that unlike other signatories of the National 
Response Plan, the Red Cross is not included in any Federal 
budget request submitted to Congress. The Red Cross has the 
expertise, experience, and commitment and organizational 
structure to implement the Mass Care Catastrophic Planning 
Initiative, but it is not the responsibility of the charitable 
public to fund the responsibilities associated with the 
National Response Plan Catastrophic Annex the government 
requires and the American public will need.
    We believe that an immediate investment by our Federal 
partners now will sharply reduce both the level of potential 
human suffering and the expenditure of significant government 
resources postincident. The Red Cross must have adequate levels 
of funding for catastrophic planning activities to fully 
execute our responsibilities under the National Response Plan.
    We remain a willing partner and welcome the challenge of 
our expanded role in the National Response Plan. We will 
continue to work closely with the Department of Homeland 
Security as it conducts its 1-year review and implementation 
plan of the National Response Plan, and will continue to work 
closely with the Department of Homeland Security as it 
undertakes its National Response Plan 4-year review and 
reissuance cycle.
    With respect to the National Preparedness Goal, we commend 
the work of the Department of Homeland Security as it creates 
effective public policy stemming from Homeland Security 
Presidential Directive 8, in particular the development of the 
standardized approach to preparedness that assesses needs and 
defines priorities.
    Recognizing the experience of the Red Cross, our president 
and chief executive officer Marty Evans was named in November 
by the Department of Homeland Security to the Homeland Security 
Presidential Directive 8 Senior Steering Committee.
    This past July the Red Cross, Department of Homeland 
Security, George Washington University, Homeland Security 
Policy Institute and the Council for Excellence in Government 
partnered to convene a symposium of recognized leaders in 
disaster preparedness, response and recovery. A copy of the 
symposium report for the subcommittee's review is respectfully 
submitted for the record.
    Undoubtedly enabling the public to know what to do in a 
disaster event will lessen the burden that the first response 
community and government at all levels will require. Limiting 
preparedness to operational capability, thereby excluding 
public preparedness, runs counter to the July 2002 National 
Strategy for Homeland Security, which affirms that homeland 
security is a shared national responsibility with the American 
people. Accordingly, we have strongly recommended during the 
development of the goal that public preparedness be thoroughly 
addressed. To our delight, the vision outlined in the Interim 
National Preparedness Goal now includes the general public as 
an active participant to achieve risk-based target levels of 
capabilities.
    Additionally, the American Red Cross urged the inclusion of 
nongovernment organizations in the National Preparedness Goal 
as partners with government in developing homeland security 
capabilities. Nongovernment organizations are now repeatedly 
listed throughout the Interim National Preparedness Goal. 
Through our numerous memorandums of understandings, 
affiliations and other strategic partners, the American Red 
Cross looks forward to helping integrate and leverage the 
nongovernment organization community in implementation of the 
goal.
    In conclusion, we value the close relationship and 
partnership with our government partners, and we appreciate 
your continued interest in these very important issues. Like 
the other panel members, I stand ready to answer any questions 
you may have.
    Thank you.
    Mr. Shuster. Thank you very much.
    My first question is about the National Preparedness System 
as it is currently set up. I think I heard, and I read your 
testimony, there is a mixed bag in there, about the--is it 
adequately comprehensive to help prepare for all hazards? So I 
would like each of you to briefly--do you think it is 
comprehensive enough, and where does it fall short? Like I 
said, be brief, if you could, so that I could get an answer 
from each of you.
    Mr. Liebersbach. Mr. Chairman, Dave Liebersbach.
    I think that one place that it does fall short, as has been 
mentioned before, is there is no reference to mitigation. There 
is reference to prevention, which is a very terroristcentric 
reference. The one place that it is applicable in natural 
disasters, of course, is wildfires, as we are familiar with 
Smokey the Bear and fire prevention. But there is no mitigation 
in the National Response Plan.
    I think the second piece of the National Response Plan that 
I have some concern about, and a lot of us do, is that it is 
primarily a National Response Plan for Federal agencies, and 
not at this point truly a National Response Plan. I think it is 
working its way there, and we have made that point fairly 
strongly, and we are being heard better that the national 
capability is there. It has just not been completely integrated 
like it needs to be done. That is why we encourage both 
Congress and DHS to continue to have the Department include 
State and local stakeholders in the development and the 
revisions of this plan to make sure it does become truly a 
national plan.
    Mr. Shuster. Thank you.
    Chief Buckman.
    Chief Buckman. I think he mentioned the mitigation aspect. 
That has been a significant debate within our State, Tribe and 
Local Working Group because mitigation seemed to be one of 
those words that we used to use, but now we don't want to use. 
But we have missed a significant portion of providing 
protection for critical infrastructure, which is different than 
prevention activities. So I think that is probably the biggest 
thing that is missing.
    Mr. Shuster. Mr. Salle.
    Mr. Salle. Mr. Chairman, I think my best response to that 
is I, as I have testified, was as an Oregon State Police 
officer for--
    Mr. Shuster. Can you talk into the mike a little more?
    Mr. Salle. As an Oregon State Police officer a lot of 
years, the last 3 years I have a better idea of what my 
brothers in the emergency management business do and how they 
do it. I could go right down the row of disciplines that are 
involved in this arena.
    As I testified, there is planning going on, exercising 
going on, joint training going on. The bottom line is, I think, 
as the question that is posed, as is currently set up, is it 
adequate? It is more adequate than it was. It will be more 
adequate in the future than it is today.
    Thank you.
    Mr. Shuster. Mr. Mascelli.
    Mr. Mascelli. Yes, briefly, I can understand some of the 
emphasis on the terrorism, the WMD types of focus, basically 
new territory in many cases, and a lot of unknowns, and the 
sort--the need to sort that out--gets smarter on that.
    I would hope that as that comes about, there is an 
evolution and there is a balance in terms of the right way. I 
am not sure what that balance is between the day-to-day natural 
events that we face and also the terrorism, the WMD events.
    Mr. Shuster. That is of the things I am concerned about, is 
it comprehensive enough? I don't believe it is at this point. I 
hope, as you have said and as Mr. Salle said, it gets better as 
we move on, because FEMA has been around for 25 or so years. 
They have responded to 13- to 1,500 natural disasters. Only 
four of them have been terrorism. I think, again, we have to 
focus on terrorists to a degree, but there are a lot of other 
things going on out there.
    That brings me to the--did any of you participate 
officially or unofficially in the creation of the 15 planning 
scenarios? You can each answer that, starting with Mr. 
Liebersbach.
    Mr. Liebersbach. Mr. Chairman, Dave Liebersbach.
    I know we did not participate in the creation of those 
scenarios. We gave some pretty adamant input after they came 
out. I think when they first came out, there was only one that 
was aimed at natural hazards, and we did get an additional one 
put in, but we weren't involved officially or unofficially.
    Mr. Shuster. Your association was not involved at all?
    Mr. Liebersbach. No.
    Mr. Shuster. All right. Mr. Buckman.
    Chief Buckman. Mr. Chairman, John Buckman.
    I would basically second what Mr. Liebersbach said, that, 
no, the International Association of Fire Chiefs was not 
invited to participate.
    It was pretty obvious to me, when I read the first draft, 
that it was written by people who had not been in the field. It 
was written by nonpractitioners, that is what I define them as; 
that they received an assignment and they wrote it, but they 
did not have any idea what reality was.
    Mr. Shuster. Mr. Salle.
    Mr. Salle. Mr. Chairman, International Association of 
Chiefs of Police did not participate in the drafting of those.
    Mr. Mascelli. Yes, sir. We were provided copies of the 
scenarios and on several occasions iterations providing 
comments back on them.
    Mr. Shuster. What do you think the mix should be on the 15 
training centers? Should we have more, 20 scenarios and 5 more 
for natural disasters? Would anybody care to comment on that?
    Chief Buckman. Well, Mr. Chairman--John Buckman. I am not 
sure that there is a number. But I think that we sometimes--we 
may be losing sight of the fact that all disasters begin and 
end locally, and that all disasters begin small and, depending 
on the size, quickly escalate to something that could be more 
than State or local, or could be local or regional, could be 
State or even Federal. And that is where we--I think that we 
have a potential for losing the funds to do the training, 
because we have spread it out over so many instead of narrowing 
it down to a fewer number.
    Mr. Shuster. All right. Mr. Liebersbach.
    Mr. Liebersbach. Mr. Chairman, Dave Liebersbach again.
    I don't know that I have a magic number for the number, but 
it needs to be better balanced.
    Mr. Shuster. What natural disasters do you think we need to 
include in there?
    Mr. Liebersbach. Well, we haven't addressed tornadoes. A 
big one that recurs annually and is the largest annualized loss 
for economics in this country is flooding, and nowhere in there 
we brought flooding in. Now, it doesn't always have the 
dynamics of a hurricane, but in terms of annualized loss over 
20-year, 10-year, 5-year periods, both in my State and across 
the United States, that is the largest costs to the American 
people.
    Mr. Shuster. What do you think about Mr. Gruber's statement 
that they have focused on terrorism because there has been so 
much training on these other areas? It doesn't seem to be the 
way that you want to look at it.
    Mr. Liebersbach. My concern is there is a lot of focus on 
those other areas, the all-hazards. I think we have done a lot 
there.
    My concern is we are not going to be able to maintain. I 
honestly believe--and I won't say it is necessarily the 
association's position, but it is Dave Liebersbach's position 
that if the hurricane scenario of September 2004 that occurred 
in the Southeastern U.S., the first 5 years from now, we will 
fail the way we are going, because the success of that response 
of that hurricane season was based on the programs that had 
come before the legacy created in the all-hazards and the true 
work of all-hazards and what was left over.
    As we are moving forward, that legacy is going to drop if 
we don't pay attention to dealing with that. We were very close 
to the edge when these hurricanes were going on, and Mount St. 
Helens began to have a seismic swarm up there, and we have a 
6.7-plus earthquake right in Southern California right in the 
middle of that. As it turns out, neither became problems, but 
that would have pushed the Federal system to its limits in 
terms of response, if not over.
    Mr. Shuster. As the folks in DHS continue to tell us that 
they are listening, I know they have listened to State and 
local views.
    Mr. Salle. I can't answer that across the spectrum. I can 
speak to the State, Local and Tribal Working Group that did a 
huge amount on NIMS and NRP over the last 2 years, and our 
answer was yes. Our input was solicited and listened to. Had it 
not been, we certainly would have some iteration of an NRP that 
doesn't look like it looks today.
    I think--
    Chief Buckman. Chief, from the International Association of 
Fire Chiefs, we would agree that they have listened, they have 
responded. We haven't won everything we have asked for, but 
they have been reputable in giving us reasons why they would 
not and could not do what we asked.
    Mr. Mascelli. I have to agree with that. Looking at the 
first draft of the preliminary response plan and then the 
successive drafts, you can now tell each draft that they were 
getting better at soliciting local input into--and there is a 
marked difference between the first and the final draft.
    Mr. Liebersbach. Mr. Chairman, Dave Liebersbach.
    I will agree with my colleague in the NRP after the first 
draft came out, as my testimony said, they were responsive in 
listening to us on that. I have concern--and we have concern 
that this is not happening with HSPD-8.
    One of the reasons is the compressed timeline that DHS is 
being driven under, I think, needs to be looked at pretty hard 
to when we get our product. Well, it is better to be 
approximately right than precisely wrong, and we are moving 
fast, but we may be moving fast up the wrong ladder.
    Mr. Shuster. How much more time do you think you need to 
adequately respond?
    Mr. Liebersbach. I would have to get back to you on that, 
Mr. Chairman. I would have to talk to my membership, who has 
been more intimately involved in working with HSPD-8 
representing NEMA. But the feedback I get back from them is 
that two things are happening. The compressed timeline is not 
allowing for an adequate look at all the needs that need to be 
looked at. Because they are in such a rush, they are not taking 
into account and have been unable to take into account what is 
already there to address this. We are beginning to duplicate 
and recreating the wheel in a lot of cases that is already out 
there.
    Mr. Shuster. That is a concern, reinventing the wheel 
instead of taking what is already out there, existing 
standards, and incorporating them into the plan, system. Do you 
feel that they are trying to reinvent the wheel in many cases, 
or is that just something that happens just on a few things?
    Mr. Liebersbach. Well, under HSPD-8, I think in many things 
they are that way, and I have read letters and gotten nice 
responses, but the effectiveness of what is really happening is 
changing--again comes to this compressed timeline. They are 
directed to get things to the President, the directive, so 
obviously they are driven to do that and have very little time 
to take into account, what we, on the ground, whether it is 
state and/or local, are trying to get back to them about the 
reality of what is needed out there on the front line.
    Mr. Shuster. Can you get your association, your members to 
give us some specifics on what they think that they haven't 
listened to or how they are trying to reinvent the wheel in 
certain cases?
    Mr. Liebersbach. Yes, I think we can.
    Mr. Shuster. I appreciate that.
    Anybody else care to share the views of your association, 
where the members believe they are trying to reinvent the wheel 
or they are incorporating existing standards or programs into 
the system?
    Mr. Salle. Again, Mr. Chairman, I can speak to my non-
across-the-spectrum work that we have done with the DHS, but 
that was one of the issues that has been alluded to with the 
initial draft of the NRP, was that, you know, you are asking 
this country and every emergency manager out there to recreate 
their plan. So this will not work.
    And, again, the response was, well, apparently you folks 
are right, so you tell us how to do it and provide input, and 
that is what we did. Beyond that, I am not aware of a situation 
on behalf of IACP.
    Mr. Shuster. Chief, do you have any comments on that?
    Mr. Buckman. No.
    Mr. Shuster. That is straightforward enough. I know I do 
not have any other questions, and Ms. Norton did not make it 
back, unfortunately. I know she had some other business that 
she had to attend to.
    Seeing there are no further questions, first I will ask 
unanimous consent for members to be permitted to submit their 
statements in the record.
    Without objection, so ordered.
    I would also like to thank again each of you for coming 
here today and spending your time. It has been very 
informative. These committee hearings are to educate us as we 
move forward and try to figure out what is really happening in 
the real world out there. A lot of times we are getting 
sometimes a different story. As I said to the folks that were 
here from Homeland Security, the Department of Homeland 
Security, I think they have done a good job. I know the time 
frame has been short, but I still think there needs to be some 
work done to improve it.
    With that, I ask unanimous consent that the record of 
today's hearing remain open until such time as all the 
witnesses have provided answers to any questions that may be 
submitted to them in writing; and unanimous consent that during 
such time as the record remains open that additional comments 
offered by individuals or groups may be included in the record 
of today's hearing.
    Without objection, so ordered.
    Again, I want to thank you all very much for traveling 
here. Sorry we took so long today, but thanks again. Appreciate 
it. And the hearing is adjourned.
    [Whereupon, at 4:38 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T1700.001
    
    [GRAPHIC] [TIFF OMITTED] T1700.002
    
    [GRAPHIC] [TIFF OMITTED] T1700.003
    
    [GRAPHIC] [TIFF OMITTED] T1700.004
    
    [GRAPHIC] [TIFF OMITTED] T1700.005
    
    [GRAPHIC] [TIFF OMITTED] T1700.006
    
    [GRAPHIC] [TIFF OMITTED] T1700.007
    
    [GRAPHIC] [TIFF OMITTED] T1700.008
    
    [GRAPHIC] [TIFF OMITTED] T1700.009
    
    [GRAPHIC] [TIFF OMITTED] T1700.010
    
    [GRAPHIC] [TIFF OMITTED] T1700.011
    
    [GRAPHIC] [TIFF OMITTED] T1700.012
    
    [GRAPHIC] [TIFF OMITTED] T1700.013
    
    [GRAPHIC] [TIFF OMITTED] T1700.014
    
    [GRAPHIC] [TIFF OMITTED] T1700.015
    
    [GRAPHIC] [TIFF OMITTED] T1700.016
    
    [GRAPHIC] [TIFF OMITTED] T1700.017
    
    [GRAPHIC] [TIFF OMITTED] T1700.018
    
    [GRAPHIC] [TIFF OMITTED] T1700.019
    
    [GRAPHIC] [TIFF OMITTED] T1700.020
    
    [GRAPHIC] [TIFF OMITTED] T1700.021
    
    [GRAPHIC] [TIFF OMITTED] T1700.022
    
    [GRAPHIC] [TIFF OMITTED] T1700.023
    
    [GRAPHIC] [TIFF OMITTED] T1700.024
    
    [GRAPHIC] [TIFF OMITTED] T1700.025
    
    [GRAPHIC] [TIFF OMITTED] T1700.026
    
    [GRAPHIC] [TIFF OMITTED] T1700.027
    
    [GRAPHIC] [TIFF OMITTED] T1700.028
    
    [GRAPHIC] [TIFF OMITTED] T1700.029
    
    [GRAPHIC] [TIFF OMITTED] T1700.030
    
    [GRAPHIC] [TIFF OMITTED] T1700.031
    
    [GRAPHIC] [TIFF OMITTED] T1700.032
    
    [GRAPHIC] [TIFF OMITTED] T1700.033
    
    [GRAPHIC] [TIFF OMITTED] T1700.034
    
    [GRAPHIC] [TIFF OMITTED] T1700.035
    
    [GRAPHIC] [TIFF OMITTED] T1700.036
    
    [GRAPHIC] [TIFF OMITTED] T1700.037
    
    [GRAPHIC] [TIFF OMITTED] T1700.038
    
    [GRAPHIC] [TIFF OMITTED] T1700.039
    
    [GRAPHIC] [TIFF OMITTED] T1700.040
    
    [GRAPHIC] [TIFF OMITTED] T1700.041
    
    [GRAPHIC] [TIFF OMITTED] T1700.042
    
    [GRAPHIC] [TIFF OMITTED] T1700.043
    
    [GRAPHIC] [TIFF OMITTED] T1700.044
    
    [GRAPHIC] [TIFF OMITTED] T1700.045
    
    [GRAPHIC] [TIFF OMITTED] T1700.046
    
    [GRAPHIC] [TIFF OMITTED] T1700.047
    
    [GRAPHIC] [TIFF OMITTED] T1700.048
    
    [GRAPHIC] [TIFF OMITTED] T1700.049
    
    [GRAPHIC] [TIFF OMITTED] T1700.050
    
    [GRAPHIC] [TIFF OMITTED] T1700.051
    
    [GRAPHIC] [TIFF OMITTED] T1700.052
    
    [GRAPHIC] [TIFF OMITTED] T1700.053
    
    [GRAPHIC] [TIFF OMITTED] T1700.054
    
    [GRAPHIC] [TIFF OMITTED] T1700.055
    
    [GRAPHIC] [TIFF OMITTED] T1700.056
    
    [GRAPHIC] [TIFF OMITTED] T1700.057
    
    [GRAPHIC] [TIFF OMITTED] T1700.058
    
    [GRAPHIC] [TIFF OMITTED] T1700.059
    
    [GRAPHIC] [TIFF OMITTED] T1700.060
    
    [GRAPHIC] [TIFF OMITTED] T1700.061
    
    [GRAPHIC] [TIFF OMITTED] T1700.062
    
    [GRAPHIC] [TIFF OMITTED] T1700.063
    
    [GRAPHIC] [TIFF OMITTED] T1700.064
    
    [GRAPHIC] [TIFF OMITTED] T1700.065
    
    [GRAPHIC] [TIFF OMITTED] T1700.066
    
    [GRAPHIC] [TIFF OMITTED] T1700.067
    
    [GRAPHIC] [TIFF OMITTED] T1700.068
    
    [GRAPHIC] [TIFF OMITTED] T1700.069
    
    [GRAPHIC] [TIFF OMITTED] T1700.070
    
    [GRAPHIC] [TIFF OMITTED] T1700.071
    
    [GRAPHIC] [TIFF OMITTED] T1700.072
    
    [GRAPHIC] [TIFF OMITTED] T1700.073
    
    [GRAPHIC] [TIFF OMITTED] T1700.074
    
    [GRAPHIC] [TIFF OMITTED] T1700.075
    
    [GRAPHIC] [TIFF OMITTED] T1700.076
    
    [GRAPHIC] [TIFF OMITTED] T1700.077
    
    [GRAPHIC] [TIFF OMITTED] T1700.078
    
    [GRAPHIC] [TIFF OMITTED] T1700.079
    
    [GRAPHIC] [TIFF OMITTED] T1700.080
    
    [GRAPHIC] [TIFF OMITTED] T1700.081
    
    [GRAPHIC] [TIFF OMITTED] T1700.082
    
    [GRAPHIC] [TIFF OMITTED] T1700.083
    
    [GRAPHIC] [TIFF OMITTED] T1700.084
    
    [GRAPHIC] [TIFF OMITTED] T1700.085
    
    [GRAPHIC] [TIFF OMITTED] T1700.086
    
    [GRAPHIC] [TIFF OMITTED] T1700.087
    
    [GRAPHIC] [TIFF OMITTED] T1700.088
    
    [GRAPHIC] [TIFF OMITTED] T1700.089
    
    [GRAPHIC] [TIFF OMITTED] T1700.090
    
    [GRAPHIC] [TIFF OMITTED] T1700.091
    
    [GRAPHIC] [TIFF OMITTED] T1700.092
    
    [GRAPHIC] [TIFF OMITTED] T1700.093
    
    [GRAPHIC] [TIFF OMITTED] T1700.094
    
    [GRAPHIC] [TIFF OMITTED] T1700.095
    
    [GRAPHIC] [TIFF OMITTED] T1700.096
    
    [GRAPHIC] [TIFF OMITTED] T1700.097
    
    [GRAPHIC] [TIFF OMITTED] T1700.098
    
    [GRAPHIC] [TIFF OMITTED] T1700.099
    
    [GRAPHIC] [TIFF OMITTED] T1700.100
    
    [GRAPHIC] [TIFF OMITTED] T1700.101
    
    [GRAPHIC] [TIFF OMITTED] T1700.102
    
                                    

</pre></body></html>
